                   Legal Fees Paid Under the
                 Troubled Asset Relief Program:
                     An Expanded Report




SIGTARP 11-004                                    September 28, 2011
            Office of the special inspector general
                 For the Troubled Asset Relief Program
                           1801 L Street, NW, 4th floor
                             Washington, D.C. 20220
 
 
                               September 28, 2011



MEMORANDUM FOR:             Mr. Timothy Massad – Assistant Secretary for Financial
                            Stability, Department of the Treasury

FROM:                       Ms. Christy L. Romero – Acting Special Inspector General
                            for the Troubled Asset Relief Program

SUBJECT:                    Legal Fees Paid Under the Troubled Asset Relief Program:
                            An Expanded Report (SIGTARP 11-004)


We are providing this audit report for your information and use. It is our expanded report
on legal fees paid under the Troubled Asset Relief Program, which was created by the
Emergency Economic Stabilization Act of 2008. The Office of the Special Inspector
General for the Troubled Asset Relief Program conducted this audit under the authority
of Public Law 110-343, as amended, which also incorporates the duties and
responsibilities of inspectors general under the Inspector General Act of 1978, as
amended.

We considered comments from the Department of the Treasury when preparing the final
report. The comments are addressed in the report, where applicable, and a copy of
Treasury’s response to the audit is included in Appendix K – Management Comments, of
this report. Names of individuals and proprietary contractor pricing information have
been redacted in this final report.

We appreciate the courtesies extended to our staff. For additional information on this
report, please contact Mr. Kurt Hyde, Deputy Special Inspector General for Audit and
Evaluation (Kurt.Hyde@treasury.gov / 202-622-4633), or Ms. Kimberley A. Caprio,
Assistant Deputy Special Inspector General for Audit and Evaluation
(Kimberley.Caprio@treasury.gov / 202-927-8978).




SIGTARP 11-004                                                         September 28, 2011
Legal Fees Paid Under the Troubled Asset
Relief Program: An Expanded Report


Table of Contents
Introduction ................................................................................................................................................. 1 
The OFS Contracts with the Four Law Firms Did Not Include Sufficiently Detailed Billing
   Requirements or Instructions.................................................................................................................. 5 
OFS Did Not Have Sufficiently Detailed Procedures for Reviewing Legal Fee Bills ............................... 6 
SIGTARP’s Criteria for Reviewing Fee Bills Paid by OFS Were Based on the FAR and Best
   Practices of Other Federal Entities ......................................................................................................... 7 
For the Four Law Firms, SIGTARP Found Block Billing, Either No Descriptions of Work or
   Vague Descriptions of Work, and Administrative Charges – All of Which OFS Should Have
   Questioned Before Payment ................................................................................................................... 9 
The OFS Process for Awarding Legal Service Contracts Provided Adequate Price Competition........... 21 
Update on SIGTARP’s Recommendations Made in the Venable Report ................................................ 24 
Conclusions and Recommendations ......................................................................................................... 25 
Management Comments and SIGTARP’s Response ................................................................................ 28 
Appendix A – Scope and Methodology .................................................................................................... 29 
Appendix B – Potential Billing Issues ...................................................................................................... 32 
Appendix C – Questioned Legal Fees by Category .................................................................................. 33 
Appendix D – Contracting Services Provided to OFS by Other Treasury Offices and
   Responsibilities of Contracting Officers and Contracting Officer’s Technical Representatives ......... 34 
Appendix E – OFS Legal Service Contracts............................................................................................. 37 
Appendix F – OFS Proposal Evaluation Rating Scale and Definition of Rating Terms ......................... 39 
Appendix G – Payment-Related FAR Clauses Incorporated into OFS Contracts .................................... 40 
Appendix H – New OFS Guidance to Its Outside Counsel on Legal Fee Bill Submission and
   Format .................................................................................................................................................. 41 
Appendix I – Acronyms and Abbreviations ............................................................................................. 42 
Appendix J – Audit Team Members ......................................................................................................... 43 
Appendix K – Management Comments.................................................................................................... 44 


    This report has cleared SIGTARP’s Office of General Counsel disclosure review process and information
    determined to be restricted from public release has been redacted from this report.
    Redaction Legend: (b)(4) – 5 U.S.C.§ 552(b)(4), Trade Secrets, Commercial or Financial Information.
                      (b)(6) – 5 U.S.C.§ 552(b)(6), Personal Information Affecting an Individual’s Privacy. 




SIGTARP 11-004                                                                                                                     September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             1




                  Introduction
                  The Department of the Treasury (“Treasury”) has paid law firms millions of
                  dollars for professional services related to the Troubled Asset Relief Program
                  (“TARP”). The Office of the Special Inspector General for the Troubled Asset
                  Relief Program (“SIGTARP”) audited Treasury’s processes for contracting for
                  and payment to five of these law firms. From the inception of TARP to
                  March 31, 2011, Treasury’s Office of Financial Stability (“OFS”), which
                  administers TARP, paid these five law firms more than $27 million in fees and
                  expenses. SIGTARP began an audit of OFS policies and practices governing
                  OFS contracts with the five law firms in May 2010 as part of SIGTARP’s
                  continuing oversight of TARP and in response to a request from Senator Tom
                  Coburn, M.D. (SIGTARP Engagement Code 021.) Senator Coburn was
                  interested in how OFS awarded contracts for professional services, whether firms’
                  labor rates were consistent with industry norms, and whether taxpayers were
                  getting the best value for these services. SIGTARP’s reporting objectives were to
                  determine whether OFS contracting processes for legal services ensure:

                     contractors submit invoices (“fee bills”) that accurately reflect the work
                      performed; and
                     contractors charge fair and reasonable prices.

                  As SIGTARP conducted its audit, it found weaknesses in the OFS contract for
                  legal services with Venable, LLP (“Venable”), as well as the OFS procedures for
                  review of Venable’s fee bills. Venable’s fee bills to OFS happened to be the first
                  law firm’s bills audited by SIGTARP. SIGTARP’s initial review of other law
                  firms’ contracts and fee bills at the time the Venable report was issued suggested
                  that they too raised similar weaknesses and issues. In light of the magnitude of
                  legal fees that continue to be paid by OFS under TARP, SIGTARP decided to
                  issue a report based on its findings on Venable’s bills and made four
                  recommendations designed to provide OFS an opportunity to quickly strengthen
                  its policies, controls, and contracts to better protect taxpayers. OFS agreed to
                  implement SIGTARP’s recommendations. That report – “Treasury’s Process for
                  Contracting for Professional Services under TARP,” SIGTARP 11-003 (the
                  “Venable report”) – was issued April 14, 2011, and is available at
                  www.SIGTARP.gov.

                 This report presents the results of SIGTARP’s audit of the remaining four law
                 firms’ contracts and fee bills. The four firms are:  
                  
                     Simpson Thacher & Bartlett LLP (“Simpson Thacher”);
                     Cadwalader Wickersham & Taft LLP (“Cadwalader”);
                     Locke Lord Bissell & Liddell LLP (“Locke”); and




SIGTARP 11-004                                                                         September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                            2




                          Bingham McCutchen LLP (“Bingham”), formerly McKee Nelson LLP.1

                       As of March 31, 2011, OFS had paid these four law firms more than $25.5 million
                       in legal fees and expenses that were subject to SIGTARP’s audit. SIGTARP
                       conducted this audit between May 2010 and May 2011, and in accordance with
                       generally accepted government auditing standards prescribed by the Comptroller
                       General of the United States. For a discussion of the audit’s scope and
                       methodology, see Appendix A.
                        
                       SIGTARP found weaknesses in the OFS contracts with the four firms for legal
                       services and OFS policies for reviewing and paying legal fee bills. The findings
                       were similar to SIGTARP’s previous report. SIGTARP found that the four firms
                       submitted, and OFS paid, bills that contained one or more of the following:

                          no descriptions of the work performed;
                          vague descriptions of the work performed;
                          descriptions of more than one task in the time entry (“block billing”);
                          expense charges without adequate support; and
                          administrative charges not allowed under the contract.

                       Because of the lack of adequate detail in the fee bills and lack of support for
                       expenses, in many instances, OFS would not have been able to assess adequately
                       the reasonableness of individual hourly charges and expenses.

                       SIGTARP likewise was not able to assess the reasonableness of most of the law
                       firms’ fees. SIGTARP questioned $8.1 million of the $9.1 million (89%) of legal
                       fee bills reviewed. The most striking example of fees questioned by SIGTARP is
                       from the law firm Simpson Thacher. Simpson Thacher billed OFS $5.8 million in
                       fees and expenses with bills that provided no detail whatsoever as to the work
                       performed. Further, Simpson Thacher did not provide any receipts, or adequate
                       documentation, for its expenses as required in one of its contracts, and billed for
                       expenses under another contract that did not allow expenses. SIGTARP
                       questioned all $5.8 million in fees and expenses OFS paid to Simpson Thacher.
                       Without knowing what specific work was included in the charges, OFS could not
                       have determined whether the fees and expenses the firm was paid were properly
                       allocable to the contract, allowable pursuant to financial regulations, and
                       reasonable, which are the requirements of the Federal Acquisition Regulation
                       (“FAR”).

                       Although SIGTARP questioned fee bills from all of the law firms audited, this
                       does not mean that all the fees and expenses SIGTARP questioned were
                       unreasonable. Instead, it means that the information provided in the bills was
1
    McKee Nelson LLP merged with Bingham McCutchen LLP in August 2009. The new firm uses the Bingham
    McCutchen name. In November 2009, OFS accepted the contractor’s request to novate the contract (substitute a new
    contract for the old one) and recognized Bingham McCutchen as the successor. All terms and conditions of the
    contract remained the same.


SIGTARP 11-004                                                                                      September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             3




                  insufficient to allow SIGTARP – or OFS – to fairly assess their reasonableness.
                  Overall, OFS should determine the allowability of $7,980,215 in unsupported
                  legal fees and expenses paid to the law firms, and disallow and seek recovery
                  from Simpson Thacher for $91,482 in ineligible fees and expenses paid that were
                  specifically not allowed under the OFS contract. Further, Simpson Thacher billed
                  for staff in unapproved “counsel” and “senior counsel” labor categories not
                  included in its contract or task orders, and OFS was not consistent in its payment
                  for those labor categories – sometimes reimbursing the charges at partner rates
                  and other times at associate rates. Overall, while this may have reduced OFS’
                  legal fees, the substitution of labor categories and rates after contract award was
                  not documented in contract modifications.

                  In the Venable report, SIGTARP concluded that OFS contracts and fee bill review
                  practices created an unacceptable risk that Treasury, and therefore the American
                  taxpayer, was overpaying for legal services. Therefore, SIGTARP made four
                  recommendations. OFS agreed to implement SIGTARP’s recommendations and
                  adopted new guidance for law firms on preparation of fee bills. OFS told
                  SIGTARP that it sent that guidance to all of the law firms with which it currently
                  has contracts and provided additional training to OFS staff. SIGTARP will
                  continue to monitor OFS’ progress in implementing SIGTARP’s
                  recommendations.

                  In determining whether the prices the law firms charged OFS were fair and
                  reasonable, SIGTARP first reviewed the OFS contract award process and found
                  that the process was adequate and in compliance with applicable provisions of the
                  FAR, which governs Federal executive agencies’ acquisition of supplies and
                  services. OFS awarded all contracts with the five firms that SIGTARP reviewed,
                  including Venable, under a provision in the FAR that allows the use of other than
                  full and open competition due to an unusual and compelling urgency, and
                  SIGTARP found that OFS followed multiple established procedures in
                  accordance with the FAR. Although OFS had narrowed the competitive field by
                  selecting firms that would receive a request to submit an offer to the Government
                  (rather than soliciting offers from all interested sources as would be required
                  under a full and open competition), OFS solicited, received, and evaluated
                  multiple offers before awarding these contracts. Further, even though OFS also
                  limited offeror response times and OFS evaluation times so contracts could be
                  awarded quickly, SIGTARP concluded that the OFS process provided adequate
                  price competition.
                   
                  However, notwithstanding the professional service prices in the contract,
                  SIGTARP found that OFS paid Simpson Thacher the full amount Simpson
                  Thacher billed for its foreign subcontractor, even though the charges were at rates
                  significantly above the ceiling rate in the contract. OFS paid more than $520 per
                  hour above the maximum allowable partner rate, $220 above the maximum
                  allowable associate rate, and $152 more than the maximum legal assistant rate.
                  Notwithstanding the fact that there was no need for OFS to pay more for these


SIGTARP 11-004                                                                        September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                              4




                  services since Simpson Thacher had already agreed in its contract to provide these
                  services at a lower rate, SIGTARP found no documentation to justify OFS paying
                  the higher rates. In total, OFS overpaid Simpson Thacher $68,936 for the work of
                  this subcontractor, and OFS should seek reimbursement of the amount paid in
                  excess of the maximum rates provided for in the contract. SIGTARP considers
                  these costs ineligible for reimbursement under OFS contract provisions.

                  In this report, SIGTARP is making new recommendations for OFS to determine
                  the allowability of unsupported legal fees and expenses and recover ineligible
                  legal fees and expenses paid to the four law firms, as well as all other law firms.
                  To further improve controls over the review and payment of legal fee bills, OFS
                  should also require pre-approval of all contracted legal staff and pre-justification
                  of their billing rates. SIGTARP’s specific recommendations are discussed later in
                  this report.




SIGTARP 11-004                                                                        September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             5




                  The OFS Contracts with the Four Law Firms
                  Did Not Include Sufficiently Detailed Billing
                  Requirements or Instructions
                 Similar to what SIGTARP found in the Venable contract, SIGTARP found that
                 the contracts with these four law firms did not contain detailed billing
                 requirements, instructions regarding the preparation of fee bills, or specific
                 guidance on allowable costs and services. Instead, the contracts incorporated only
                 general payment information by reference to two FAR provisions governing
                 payment. SIGTARP also examined the task orders issued under the contracts, but
                 none included any additional invoice or billing requirements. The task orders did
                 include instructions on how to email fee bills to Treasury’s vendor pay system for
                 payment, but did not provide instructions on how the fee bills should be structured
                 or how attorneys and paralegals should document and report their time for each
                 activity.

                  OFS contracts with the law firms ultimately govern allowable services and costs.
                  As SIGTARP reported previously, if OFS had included specific, detailed
                  provisions regarding billing methods, and allowable services and costs in its
                  contracts, or had more effective internal procedures for reviewing legal fee bills,
                  the billing issues SIGTARP identified should not have been allowed.




SIGTARP 11-004                                                                         September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                             6




                        OFS Did Not Have Sufficiently Detailed
                        Procedures for Reviewing Legal Fee Bills
                        SIGTARP found weaknesses in OFS’ then-existing procedures for reviewing
                        invoices from contractors because the procedures lacked sufficient detail. As
                        previously discussed in more detail in SIGTARP’s Venable report, SIGTARP
                        reviewed the OFS “Contracting Officer Technical Representative (COTR)
                        Nomination and File Organization Procedures” (“COTR procedures”) and the
                        OFS “Administration Procedures” to determine whether these procedures are
                        sufficient to ensure payments are made only for invoices submitted by contractors
                        that adequately and accurately reflect the work performed and that only include
                        allowable costs. The COTR procedures state, in Section 4.3.1.2, Contract
                        Performance Management, that COTR duties may include, “Reviewing contractor
                        invoices to ensure costs are allocable to the contract, allowable pursuant to
                        financial regulations, and reasonable.” However, the procedures do not provide
                        specifics on allowable and unallowable costs, services, and charges; nor are
                        COTRs separately provided this information as a guide to perform reviews of the
                        fee bills. The OFS procedures do not provide specific instructions or guidelines
                        that would serve as a basis for COTRs to review and question invoices.

                        As reported previously, OFS COTRs interviewed by SIGTARP confirmed that
                        there were no written standards for the invoice review process. The OFS COTRs
                        told SIGTARP that they employ informal processes that begin when the
                        contractor submits an invoice and status report that includes hours and dollars
                        spent. The COTRs stated that they review all documentation for accuracy and
                        reasonableness and typically communicate with the various OFS business teams
                        and others receiving a contractor’s work to determine whether the time and
                        information reported are accurate. They also review invoices submitted by other
                        vendors for similar tasks and compare them to the invoice they are examining.
                        The COTRs informed SIGTARP that when conducting their reviews of legal
                        contracts in particular, they look for issues such as unauthorized attorneys
                        working on the contract, double billing, or “other direct costs”2 not covered by the
                        contract such as automated legal research, long-distance telephone calls, and
                        commercial messenger and delivery services. According to the COTRs, unless
                        the contract states that other direct costs are reimbursable, they are not paid. The
                        COTRs told SIGTARP they employed all of these informal processes when
                        reviewing the fee bills that were the subject of this audit.




2
    “Other direct costs” are contract-related expenses for anything other than direct labor charges.


SIGTARP 11-004                                                                                         September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                                          7




                         SIGTARP’s Criteria for Reviewing Fee Bills Paid
                         by OFS Were Based on the FAR and Best
                         Practices of Other Federal Entities
                         Without the benefit of detailed guidance to law firms in the OFS contracts or
                         detailed OFS internal procedures for its staff to review the bills, SIGTARP looked
                         to the following guidance (which is more extensively explained in SIGTARP’s
                         Venable report):

                            FAR clauses expressly incorporated in the OFS legal service contracts; and
                            general provisions in the FAR governing labor-hour contracts.

                         In addition, SIGTARP looked to best practices of other Federal entities,
                         particularly the Federal Deposit Insurance Corporation (“FDIC”), which has a
                         long history of contracting with law firms to provide legal representation and
                         advice to the agency to assist it in the management and liquidation of assets and
                         liabilities from closed, insured banks.3 The FDIC Outside Counsel Deskbook
                         directs, among other things, the billing practices of law firms working with FDIC.
                         It includes:

                            requirements for outside counsel to prepare a budget at the commencement of
                             a matter and submit detailed fee bills on a regular basis in accordance with the
                             budget;
                            submission instructions, including requirements for monthly billing and for
                             billing within 30 days of the last day of the contractor’s billing cycle;
                            descriptions and lists of billable and non-billable fees and expenses, including
                             documented approval and retention of receipts for non-overhead expenses;
                             and
                            invoice format, including requirements and examples for:

                             o detail and description of services or activities (time billed for each activity
                               should be identified separately; block billing – the combination of
                               different types of activities in one entry on the invoice – is prohibited,
                               even if the same individual performed the activities, unless the total time
                               charged is no more than 30 minutes);
                             o time increments (billing in increments of greater than 0.1 hour – 6 minutes
                               – is unacceptable);
                             o itemization of expenses; and


3
    Outside counsel under contract to FDIC provide a broad range of services, including liquidation of failed insured
    depository institutions; bankruptcy and creditors’ rights; collections; foreclosures; real estate and financial transactions
    including debt restructuring; general business and corporate law advice; professional, director, and officer liability issues;
    and other litigation. As of July 31, 2010, FDIC’s website (www.FDIC.gov) listed more than 900 law firms on its “List of
    Counsel Available.”


SIGTARP 11-004                                                                                              September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                               8




                         o travel reimbursements, similar to requirements in Government travel
                           regulations.

                     SIGTARP also reviewed practices used by the Department of Justice’s United
                     States Trustee Guidelines,4 and local rules of court established by the Delaware
                     Bankruptcy Court.5

                     Using the FAR and best practices of these Federal entities, SIGTARP prepared a
                     list of potential billing issues and then evaluated a sample of legal fee bills paid
                     by OFS by comparing each individual hourly labor charge in the fee bills to the
                     list of potential billing issues.6 All potential billing issues SIGTARP assessed are
                     listed in Appendix B.

                     The sampled fee bills represent about $9.1 million of the total $25.5 million OFS
                     paid the four law firms that were subject to SIGTARP’s audit in this report, or
                     36% of total billings. The value of each of the law firms’ legal fees that
                     SIGTARP audited is shown in Table 2 of Appendix A.




4
  The Bankruptcy Reform Act of 1994 amended the responsibilities of the United States Trustees under 28 U.S.C.
  586(a)(3)(A) to provide that, whenever they deem appropriate, United States Trustees will review applications for
  compensation and reimbursement of expenses under section 330 of the Bankruptcy Code, 11 U.S.C. 101, et seq., in
  accordance with procedural guidelines adopted by the Executive Office for United States Trustees. The guidelines are
  available at http://www.justice.gov/ust/eo/rules_regulations/guidelines/docs/feeguide.htm.
5
  Although SIGTARP assessed Rule 2016-2 (d) from the Local Rules for the United States Bankruptcy Court, District of
  Delaware, which became effective February 1, 2009, all bankruptcy courts have similar standards for fees, whether
  contained in local rules or not. The Delaware Bankruptcy Court is considered a leading bankruptcy court for standards
  because of the number of corporations registered in the state. The rule is available at
  http://www.deb.uscourts.gov/LocalRules/LOCAL%20RULES%202009.pdf.
6
  SIGTARP selected the largest fee bills submitted by the four law firms.


SIGTARP 11-004                                                                                       September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                                   9




                      For the Four Law Firms, SIGTARP Found Block
                      Billing, Either No Descriptions of Work or Vague
                      Descriptions of Work, and Administrative Charges
                      – All of Which OFS Should Have Questioned
                      Before Payment
                      In an effort to assess the reasonableness of the $9.1 million sample of fee bills,
                      SIGTARP compared descriptions of work performed by each contracted attorney
                      or paralegal (collectively “timekeepers”) in each individual time charge on the
                      sampled fee bills to the list of potential billing issues in Appendix B. SIGTARP
                      questioned any item that:

                         was not a professional service and was not directly attributable to achieving
                          the contract or task order statement of work, such as preparing an invoice or
                          researching case law for matters outside the scope of work;
                         did not have sufficiently detailed descriptions of the task performed; or
                         had descriptions of more than one task in the time entry, which is typically
                          called lump billing or block billing.

                      After reviewing each charge, SIGTARP classified it as:

                         “allowable,” 7 when no exception to the FAR or SIGTARP’s list of potential
                          billing issues was noted;
                         “unallowable,” when the cost was not allowed as prescribed by FAR
                          31.201-2, or fit the description of a charge included in SIGTARP’s list of
                          potential billing issues in Appendix B; or
                         “unsupported,” when the description of work did not contain enough
                          information for SIGTARP to determine whether the task met the five FAR
                          31.201-2 requirements8 to be “allowable” or whether it fit the description of a
                          charge included in SIGTARP’s list of potential billing issues.

                      Where there were no descriptions of the specific work performed, SIGTARP
                      questioned all of the fees. Where there were descriptions of the work, SIGTARP
                      assessed the description of work performed in each individual time charge.

7
  FAR Subpart 31.2, Contracts with Commercial Organizations, prescribes the determination and proper treatment of costs in
  Government contracts with commercial organizations. Specifically, subsection 31.201-1 describes the composition of total
  cost, and subsections 31.201-2 through 31.201-4, respectively, describe the principles used to determine whether costs are
  properly allowable, reasonable, and allocable to Government contracts.
8
  Under FAR 31.201-2, a cost is allowable only when it complies with all of the following five requirements. The cost must:
  (1) be reasonable (not exceed that which would be incurred by a prudent person in the conduct of a competitive business),
  (2) be allocable (incurred specifically for the contract), (3) meet standards promulgated by the Cost Accounting Standards
  Board or generally accepted accounting principles, (4) be within the terms of the contract, and (5) be within any limitations
  set forth by FAR Subpart 31.2, which prescribes the determination and proper treatment of costs in Government contracts
  with commercial organizations.


SIGTARP 11-004                                                                                          September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                                                             10




                     SIGTARP questioned $8.1 million, or 89%, of the fee bills reviewed. Including
                     the amounts questioned for Venable in SIGTARP’s previous report, SIGTARP
                     questioned $8.7 million of $10.1 million in legal fees audited, or 86%. Table 1
                     identifies the costs SIGTARP questioned for each sampled law firm. The fact that
                     SIGTARP questioned these costs does not mean that all of the money paid should
                     be recovered from the law firms. Instead, it means that OFS should request and
                     receive additional information from the law firms to justify payment under the
                     FAR as being properly allocable to the contract, allowable, and reasonable, and in
                     accordance with the best practices of other Federal entities.


                     TABLE 1

                      QUESTIONED LEGAL FEES

                                                                                    Audited                 Questioned               Percent of
                                                                                   Fees and                   Fees and             Audited Fees
                      Law Firm                                                    Expenses                   Expenses               Questioned
                                                            1
                      Simpson Thacher & Bartlett LLP                              $5,883,206                  $5,883,206                 100%
                                                                 2
                      Cadwalader Wickersham & Taft LLP                             2,869,998                   1,983,685                  69%
                      Locke Lord Bissell & Liddell LLP                               272,243                     146,867                  54%
                      Bingham McCutchen LLP
                      (novated from McKee Nelson LLP)                                  67,383                      57,939                 86%
                         Subtotal Related to This Report                          $9,092,830                  $8,071,697                  89%
                                      3
                      Venable LLP                                                  1,027,049                     676,840                  66%
                         Total for This Audit                                   $10,119,879                   $8,748,537                  86%
                     Notes: Numbers affected by rounding.
                     1
                       Simpson Thacher’s contract number TOFS-09-0009 is still active. Between 02/04/2011, when OFS provided SIGTARP fee
                       bills for audit, and 03/31/2011, OFS paid additional Simpson Thacher fee bills totaling $83,824. The additional fee bills were
                       not subject to SIGTARP’s audit.
                     2
                       OFS awarded contract number TOFS-10-D-0006 to Cadwalader Wickersham & Taft after SIGTARP’s audit began. It was,
                       therefore, not subject to audit. As of 03/31/2011, $3,789,815 had been obligated and $992,237 was expended under the
                       contract.
                     3
                       All amounts shown for Venable LLP were previously reported in audit report number SIGTARP 11-003, “Treasury’s Process
                       for Contracting for Professional Services under TARP,” issued April 14, 2011, and are shown here for comparative purposes
                       only.
                     Source: SIGTARP analysis of data provided by OFS.




                     SIGTARP questioned the largest percentage of costs because law firms provided
                     inadequate detail to support charges for hourly fees and related expenses.9 Then,
                     SIGTARP questioned most of the remaining costs because they were block billed,
                     meaning that a single charge included descriptions of several different tasks
                     without specifying the time required to complete each task, and together the tasks
                     totaled more than 30 minutes.10 While OFS’ legal service contracts did not
                     specifically prohibit block billing, the COTRs had the authority to reject invoices
                     containing such billing based on FAR standards. Reasonableness of individual

9
   Appendix C presents all questioned and unsupported legal fees and expenses that SIGTARP identified, categorized by
   type of billing issue.
10
   Consistent with the FDIC Outside Counsel Deskbook, SIGTARP did not question block-billed charges totaling 30 minutes
   or less.


SIGTARP 11-004                                                                                                                 September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                            11




                     tasks, and, therefore, allowability under the FAR guidelines, cannot be determined
                     when charges are block billed. That OFS COTRs did not use this authority under
                     the FAR guidelines may have been a product of the lack of sufficiently detailed
                     OFS procedures on reviewing fee bills. SIGTARP, however, questioned all
                     block-billed charges. SIGTARP questioned fee bills from all four firms audited,
                     as discussed in the sections below.

                     SIGTARP Questioned All $5.8 Million of Simpson Thacher’s Legal
                     Fees Because Simpson Thacher Did Not Provide Any Description of
                     Work Performed or Any Receipts for Expenses
                     From the inception of TARP in October 2008, through March 31, 2011, OFS paid
                     Simpson Thacher more than $5.8 million in legal fees and expenses under three
                     contracts. The first, contract TOS-09-007, was awarded on October 10, 2008.
                     While containing a Statement of Work broad enough to include legal advice and
                     services on any of the TARP programs, it focused on the Public-Private
                     Investment Program (“PPIP”). Simpson Thacher also provided corporate law
                     advice for such matters as disposing of the warrants issued under the Capital
                     Purchase Program (“CPP”), and the sale of shares of Citigroup common stock
                     received as part of CPP. The contract had a maximum value of $500,000, which
                     OFS increased to $1,025,000 through a series of modifications.11 In total,
                     Simpson Thacher was paid $931,090 for its services under this contract. The
                     second contract, TOFS-09-D-0001, was awarded to Simpson Thacher on
                     February 20, 2009, to provide legal services related to Treasury investments under
                     CPP and the Capital Assistance Program (“CAP”). This contract had a maximum
                     value of $5,000,000.12 In total, Simpson Thacher was paid $1,530,023 for its
                     services under this contract. The third contract, TOFS-09-D-0009, was awarded
                     on May 26, 2009, and contained the same Statement of Work as Simpson
                     Thacher’s first OFS contract. This contract had a maximum value of
                     $15,000,000, and is still active.13 As of March 31, 2011, Simpson Thacher had
                     received $3,505,917 for its services under this contract.

                     SIGTARP questioned all $5.8 million in fees and expenses OFS paid to Simpson
                     Thacher because Simpson Thacher provided no detail of work performed in its fee
                     bills, and did not provide receipts or proper documentation for expenses. Because
                     no descriptions of individual tasks performed were included in any of the 43 fee
                     bills submitted under the 11 task orders of the three contracts, SIGTARP could
                     not determine whether, as required by the FAR, any fees or costs submitted by
                     Simpson Thacher and paid by OFS were allocable to the contract, allowable
                     pursuant to financial regulations, and reasonable. OFS COTRs should not have
                     paid any of Simpson Thacher’s fee bills without additional information.



11
   On October 10, 2008, OFS awarded the only task order for this contract for work performed through April 9, 2009.
12
   Between February 20, 2009, and July 10, 2009, six task orders were awarded under the Simpson Thacher contract for work
   performed through October 31, 2009.
13
   Four task orders have been issued under this contract.


SIGTARP 11-004                                                                                     September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                            12




                  OFS COTRs did initially reject some invoices and reduced payments on others,
                  then later approved them for payment after receiving corrected fee bills. Based on
                  emails and documentation in the contract file, COTRs rejected invoices or
                  questioned charges for reasons such as:

                     billing for other direct costs under a contract that did not allow for them;
                     billing for unapproved labor categories;
                     billing at rates above the contract’s maximum allowable labor rates;
                     billing amounts above the task order maximum ceiling value;
                     billing for work performed under an incorrect task order; and
                     submitting vendor backup documentation that did not match source materials.

                  However, despite raising these issues, OFS still paid more than $5.8 million in
                  fees and expenses for fee bills that contained no description of work whatsoever.
                  It is unclear, however, why the COTRs allowed Simpson Thacher to continue to
                  bill in the manner it did.

                  The following is an example of a typical Simpson Thacher fee bill provided to
                  SIGTARP by OFS:




SIGTARP 11-004                                                                       September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                                         13




                                                                            Invoice No. 257565
    U.S. DEPARTMENT OF THE TREASURY                                           October 14, 2009
                                                                                                 In This Invoice,
                                                                                                 SIGTARP Was
                               SIMPSON THACHER & BARTLETT LLP
                            425 LEXINGTON AVENUE, NEW YORK, NEW YORK 10017-3954                  Looking For:
 
     For all professional services rendered in
                                                                                                  Task Descriptions and
     connection with Treasury/TO Obligation
                                                                                                   Completion Times –
     Document No. TOFS-09-D-0001 TO 0005                                                           Detailed descriptions of each
     through June 26, 2009, based on time                                                          service or activity, and the
     recorded through October 1, 2009.                                                             time billed for each.
                                                      Hours and Dollars Spent *
                                                                                                   o Without task descriptions,
                                                                                                     the reviewer cannot tell
                                              Hours                               Dollars            whether the work was
      Partners
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                 $756.88              necessary or related to this
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $41,175.00             contract.
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $24,745.00           o Without completion times,
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                $2,850.00             the reviewer cannot tell
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $14,488.75
                                                                                                     whether the time billed to do
      Senior Counsel                                                                                 the work was reasonable.
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                   $3,155.63        o Each task description and the
                                                                                                     time charged to complete
      Associates
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                $5,573.75             that task should be presented
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                 $914.38              separately – tasks should not
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $16,032.50             be combined, and times
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $16,948.75             should not be combined.
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $29,375.00
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                 $481.25           Hourly Rate – If the hourly
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                $1,856.25           rate for each timekeeper is
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                $4,143.75
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $19,617.50
                                                                                                   not shown, the reviewer must
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]               $18,335.63           recalculate each line to
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                 $700.63            determine whether the rate is
                                                                                                   correct.
      Legal Assistants
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                     $50.00        Receipts for Expenses –
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                    $350.00         Although expenses were not
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                    $281.25         included in this bill, when
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                     $58.75
      [name redacted–(b)(6)]            [hours redacted–(b)(4)]                     $56.25         other direct costs are billed,
                                                                                                   receipts need to be provided
      Total                             [hours redacted–(b)(4)]             $201,946.88            so the reviewer can see that
                                                                                                   the expenses were necessary
      * Hours reflect entries recorded in the Firm’s computer system as                            and properly related to the
      of October 1, 2009 and may not reflect all hours for services
                                                                                                   contract.
      rendered during the period.




                            Narrative task descriptions were not included in any of the Simpson Thacher
                            invoices. In fact, two of Simpson Thacher’s early fee bills paid by OFS contained
                            only the total dollar amount owed for professional services rendered. Both were
                            submitted on the same day – one was for $200,000 and the other, for $300,000.
                            Neither contained any detail of work performed, the number of hours worked,
                            labor rates, names of attorneys and paralegals performing the work, or even the
                            billing period. At SIGTARP’s request during the course of this audit, OFS



SIGTARP 11-004                                                                                               September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             14




                  obtained from Simpson Thacher hourly breakdown information for these two
                  invoices, but descriptions of specific tasks performed were not provided.

                  Other fee bills included only the total number of hours charged, while still others
                  contained only the total number of hours broken out by timekeeper (as shown in
                  the previous example) without any detail as to the tasks the timekeeper was
                  performing. No invoice contained enough information to justify OFS paying
                  Simpson Thacher.

                  Other billing issues identified by SIGTARP in the review of Simpson Thacher fee
                  bills include the following:

                     Simpson Thacher billed for foreign subcontractor costs (for a United
                      Kingdom firm) without obtaining prior consent from Treasury for
                      subcontracting, and billed at rates significantly above the contract’s
                      maximum allowable rate for each labor category – Simpson Thacher used
                      a subcontractor in the United Kingdom for legal services under its contract
                      (TOFS-09-0001, task order 1). This task order was subject to the terms of the
                      original contract, which incorporates FAR 52.244-2, Subcontracts, and,
                      among other things, requires pre-approval of any labor-hour subcontracts. In
                      other words, Simpson Thacher was not authorized to enter into a subcontract
                      with any firm because Simpson Thacher did not obtain prior consent from the
                      contracting officer to do so. Nonetheless, significantly after the fact, the
                      contracting officer approved Simpson Thacher’s use of the subcontractor.

                      OFS also reimbursed Simpson Thacher for this subcontractor at rates
                      significantly above the ceiling rate in Simpson Thacher’s contract. Simpson
                      billed more than $520 per hour above the maximum allowable partner rate,
                      $220 above the maximum allowable associate rate, and $152 more than the
                      maximum legal assistant rate. SIGTARP found no justification in the contract
                      file for OFS paying the higher rates. Simpson Thacher had already agreed in
                      its contract to provide these services at a lower rate. In total, OFS overpaid
                      Simpson Thacher $68,936 for the work of this subcontractor, and OFS should
                      seek reimbursement of the amount paid in excess of the maximum rates
                      provided for in the contract. SIGTARP considers these costs ineligible under
                      OFS contract provisions.

                     Simpson Thacher billed for unauthorized expenses and did not provide
                      receipts for authorized expenses – Although reimbursed by OFS, “other
                      direct costs,” which are contract-related expenses for anything other than
                      direct labor charges, were not allowed unless specifically authorized.
                      However, OFS reimbursed other direct costs for Simpson Thacher, even when
                      those expenses were not authorized under Simpson Thacher’s contract and
                      task order. According to the OFS COTRs whom SIGTARP interviewed, and
                      confirmed later by OFS, in order for other direct costs to be properly
                      reimbursed an “Other Direct Costs” clause must be included in the contract, or


SIGTARP 11-004                                                                         September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             15




                      an express allowance for other direct costs must be included in the specific
                      task order. Neither Simpson Thacher’s contract TOS-09-007 nor its
                      underlying task order included an Other Direct Costs clause. Nonetheless,
                      $22,546 in other direct costs were submitted by Simpson Thacher and
                      reimbursed by OFS. SIGTARP questioned all $22,546 in other direct costs
                      billed under this contract because the other direct costs provision was not
                      included in the contract and those expenses should not have been reimbursed
                      under OFS’ current practices. Accordingly, SIGTARP considers these costs
                      ineligible for reimbursement under OFS contract provisions.

                      In another Simpson Thacher contract, other direct costs were authorized.
                      However, Simpson Thacher did not provide receipts or adequate
                      documentation for those other direct costs that Simpson Thacher was allowed
                      to bill to OFS. Specifically, in contract TOFS-09-D-0009, other direct costs
                      were allowed, and Simpson Thacher was reimbursed for such costs totaling
                      $5,286. As stated in the contract: “All invoices shall be fully documented by
                      including receipts evidencing payment by the contractor and shall identify the
                      action with which the expenditure is connected.” However, except for one
                      instance when information regarding a telephone call was provided, receipts,
                      or adequate documentation, were not provided for other direct costs as part of
                      the invoice. In the one instance when more information was provided to
                      document telephone calls, the matter being discussed was not clearly
                      identified, nor were the individuals participating in the call. Other expense
                      descriptions for telephone calls did not state whether they were local or long-
                      distance, which determines whether or not they were properly reimbursable.
                      After SIGTARP questioned OFS about these charges, OFS obtained
                      additional receipts and documentation from Simpson Thacher and provided
                      them to SIGTARP. However, OFS did not obtain receipts and documentation
                      from Simpson Thacher for these charges prior to SIGTARP raising the issue
                      in this audit. Also, the additional receipts and documentation did not include
                      the topics researched or the subject matter discussed in telephone calls and,
                      therefore, it is not possible to determine whether these charges are properly
                      reimbursable.

                     Invoices did not clearly identify the beginning and ending dates of the
                      billing period covered, and invoices were not submitted timely or on a
                      regular basis – Combined, these two factors would have inhibited the ability
                      of OFS to assess the reasonableness of the charges in any given month. For
                      example, because Simpson Thacher did not have fixed cutoff and billing
                      periods, it continued to collect time charges from previous billing periods and
                      then billed them to OFS with current period charges. This process also
                      allowed timekeepers to continue documenting their time after the end of the
                      billing period during which they provided services to OFS. For example, the
                      Simpson Thacher invoice above – dated October 14, 2009 – stated that it was
                      “For all professional services rendered…through June 26, 2009, based on time
                      recorded through October 1, 2009.” In other words, in this instance Simpson


SIGTARP 11-004                                                                        September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                               16




                      Thacher’s staff was three months late not only in reporting their time but also
                      in recording the time. As such, the COTR would not have had the opportunity
                      to even review the invoice until months after the work had been performed
                      and could not have reasonably determined whether the hours charged for the
                      tasks were appropriate. For example, on one invoice, Simpson Thacher billed
                      514 hours for one of its attorneys and 459 for another. This would be
                      excessive for a month’s billing – an average of 128 hours and 114 hours per
                      week, respectively – but without knowing the billing period, reasonableness
                      cannot be determined.

                     Simpson Thacher billed for staff in unapproved “counsel” and “senior
                      counsel” labor categories not included in its contract or task orders, and
                      OFS was not consistent in its payment for those labor categories – Only
                      “partner,” “associate,” and “legal assistant” labor categories were included in
                      Simpson Thacher contracts TOFS-09-D-0001 and TOFS-09-D-0009. As
                      such, the various “counsel” labor categories were not included in the
                      “Maximum Labor Rate Table,” and OFS told SIGTARP that neither of the
                      two contracts was modified to include them.

                      For contract TOFS-09-D-0001, Simpson Thacher billed for attorneys in
                      “counsel” and “senior counsel” labor categories at varying rates and OFS paid
                      for the counsel labor categories by sometimes reimbursing the charges at
                      partner rates and other times at associate rates – but there was no justification
                      for any of the rates Simpson Thacher charged or the OFS reimbursement
                      rates. OFS told SIGTARP that an agreement on reimbursement rates for
                      counsel for this contract was based on conversations between the contracting
                      officer and the COTR in early 2009, and that it was the COTR’s
                      understanding that counsel rates – billed below the maximum rate for partner
                      – were allowable. Under contract TOFS-09-D-0009, Simpson Thacher again
                      billed, and OFS paid, for some attorneys in counsel labor categories, even
                      though there was no documentation that OFS had agreed to the use of counsel
                      labor categories.

                      Because a rate category for counsel did not exist in either contract, there were
                      no standards in the contracts that delineated the experience required for this
                      labor category. Thus, a more junior attorney could have been billed at a
                      partner-equivalent rate. The inconsistencies allowed by the OFS COTRs
                      could have been avoided by: (a) the use of multiple rate categories within
                      each labor category based on justifiable, previously agreed-upon standards
                      such as the attorneys’ years of experience; and (b) OFS requiring pre-
                      approval, in specified labor categories and at specified rates, of all contracted
                      legal staff before they are allowed to work on and charge time to OFS
                      projects.

                     Some Simpson Thacher individual attorneys and other staff billed at
                      different rates – For example, on one invoice the same attorney appears four


SIGTARP 11-004                                                                          September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                                 17




                             times and billed at two different rates. OFS told SIGTARP that it was not
                             notified in advance of any changes to individual billing rates. SIGTARP
                             found no evidence of contractor staff being preapproved to work on the
                             contract or identification of any specific labor category or rate for contractor
                             staff before fee bills were submitted. Simpson Thacher did not provide
                             documentation to explain why some attorneys and staff in the same labor
                             category could bill at a higher rate than others. However, OFS informed
                             SIGTARP that specific contractor employee rates were not approved or
                             disapproved as long as their billing rate was within the labor category range
                             and the employee met the requirements of the labor category description.

                        SIGTARP Questioned $1,983,685 of Cadwalader’s Legal Fees
                        On March 30, 2009, OFS entered into a contract with Cadwalader to provide legal
                        services related to Treasury’s TARP investment in the auto industry. The contract
                        initially had an $8,590,000 maximum value that was raised to $26,756,322
                        through a contract modification.14 In total, OFS paid Cadwalader $17,392,786 for
                        its services under this contract.

                        Of the $2,869,998 sample of Cadwalader’s legal fees and expenses SIGTARP
                        reviewed, SIGTARP questioned $1,983,685 that OFS paid to Cadwalader,
                        primarily based on block billing. In addition, in some instances Cadwalader did
                        not provide enough detail for SIGTARP to determine whether charges were
                        reasonable, and in other instances, paralegals or clerical staff could have
                        performed tasks performed by attorneys. These billing issues are illustrated in the
                        following examples:

                            Block billing –
                               05/01/09 [Timekeeper name redacted–(b)(6)]: EMAIL EXCHANGE AMONG LAW FIRMS
                                        PLOTTING DOL CONF CALL RE VEBA. STUDY DEAL DOCS FOR SAME. LONG CONF
                                        CALL DOL RE ERISA & VEBA. TCS AND EMAILS RE SAME WITH [name redacted–
                                        (b)(6)], [name redacted–(b)(6)], ETC. DRAFT SUMMARY OF CONF CALL FOR UST.
                                        (6.00 HOURS)
                               05/01/09 [Timekeeper name redacted–(b)(6)]: TELEPHONE CALLS WITH [name redacted–
                                        (b)(6)], [name redacted–(b)(6)]; CONFERENCE RE: TAX ISSUES WITH [name
                                        redacted–(b)(6)]; [name redacted–(b)(6)]; [name redacted–(b)(6)]; [name
                                        redacted–(b)(6)]; [name redacted–(b)(6)]; REVIEW AND REVISE DOCUMENTS;
                                        RESEARCH RE: TAX ISSUES. (6.84 HOURS)


                            Inadequate detail –
                               05/01/09 [Timekeeper name redacted–(b)(6)]: REVISE AGREEMENTS, SCHEDULES; CALLS;
                                        E-MAILS. (5.00 HOURS)

                               05/03/09 [Timekeeper name redacted–(b)(6)]: REVIEW SCHEDULES; E-MAILS. (2.50 HOURS)




14
     Between April 2, 2009, and July 8, 2009, four task orders were awarded under the contract for work performed through
     July 31, 2010.


SIGTARP 11-004                                                                                         September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                              18




                         Tasks not requiring attorneys –
                            05/01/09 [Timekeeper name redacted–(b)(6)]: PREPARED SIGNING DOCUMENT ROOM.
                                     (13.84 HOURS)
                            05/01/09 [Timekeeper name redacted–(b)(6)]: SCANNED PDFS OF TERM SHEETS,
                                     SUBSCRIPTION AGREEMENTS, AND ADDITIONAL PURCHASE AGREEMENT AND
                                     LETTERS TO [name redacted–(b)(6)], [name redacted–(b)(6)] AND [name
                                     redacted–(b)(6)]. (1.34 HOURS)
                            05/01/09 [Timekeeper name redacted–(b)(6)]: MONITOR SIGNING ROOM; UPDATE FOLDERS
                                     FOR SIGNING DOCUMENTS; UPDATE INDEX OF SIGNING DOCUMENTS. (6.17 HOURS)



                      Because multiple tasks were included in block billed charges without actual
                      completion times, SIGTARP was not able to determine which portions of these
                      charges are appropriate and so questioned the entire amount. Cadwalader would
                      need to provide additional information for OFS to determine whether these
                      charges were reasonable and therefore allowable.

                      Further, in reviewing the descriptions in Cadwalader’s fee bills, there was
                      inadequate detail to determine whether the charge was reasonable. In the example
                      above, the COTR could not have reasonably determined with whom the
                      conference calls and conferences were held and for what purpose, and whether the
                      conferences and calls were necessary for the level of persons involved, and not
                      longer than necessary.

                      SIGTARP Questioned $146,867 of Locke’s Legal Fees
                      On February 12, 2009, OFS entered into a contract with Locke to provide legal
                      services in support of certain of Treasury’s TARP investments in S-Corporations
                      as well as other certain investments in TARP’s Capital Purchase Program.15 The
                      contract had a $2,000,000 maximum value. In total, the firm was paid $272,243
                      for its services under this contract.16

                      Of the $272,243 of Locke’s legal fees and expenses OFS paid, SIGTARP
                      questioned approximately half ($146,867). Most of the charges were questioned
                      because they were block billed. In some cases, Locke’s descriptions of tasks
                      performed did not contain enough detail for SIGTARP to determine whether
                      charges were reasonable. These billing issues are illustrated in the following
                      examples:




15
   Under the Capital Purchase Program, Treasury directly purchased preferred stock or subordinated debentures in qualifying
   financial institutions. CPP was intended to provide funds to “stabilize and strengthen the U.S. financial system by
   increasing the capital base of an array of healthy, viable institutions, enabling them [to] lend to consumers and
   business[es].” Treasury invested $204.9 billion in 707 institutions through CPP.
16
   On February 12, 2009, OFS awarded the only task order under the contract and work was performed through May 5, 2009.


SIGTARP 11-004                                                                                       September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                               19




                           Block billing –
                               03/09/09 [Timekeeper name redacted–(b)(6)]: CONFERENCE WITH [name redacted–(b)(6)]
                                        AND [name redacted–(b)(6)]; REVIEW DOCUMENTS. (4.00 HOURS)

                               03/10/09 [Timekeeper name redacted–(b)(6)]: CIRCULATION OF CORRESPONDENCE TO
                                        TREASURY AND [bank name redacted–(b)(4)] WITH APPLICABLE DOCUMENTS;
                                        REVIEWS OF RECEIVABLES AND INTERNAL DISCUSSION WITH REGARD THERETO;
                                        PREPARATION OF FURTHER REQUIRED CORRESPONDENCE; REVIEW OF PACKAGE OF
                                        SIGNATURE PAGES; CALL WITH COUNSEL TO [bank name redacted–(b)(4). (6.70
                                        HOURS)

                           Inadequate detail –
                               03/11/09 [Timekeeper name redacted–(b)(6)]: CLOSING FOR [bank name redacted–(b)(4)];
                                        CONFERENCES. (1.60 HOURS)

                               03/09/09 [Timekeeper name redacted–(b)(6)]: REVIEW DOCUMENTS WITH [name redacted–
                                        (b)(6)]. (4.00 HOURS)
                               03/18/09 [Timekeeper name redacted–(b)(6)]: REVISE DOCUMENTS. (1.70 HOURS)

                           Administrative –
                               03/05/09 [Timekeeper name redacted–(b)(6)]: REVIEW AND ANALYZE INFORMATION
                                        RELATED TO PROVISION OF SERVICES TO THE DEPARTMENT OF TREASURY AND
                                        GOVERNMENT CONTRACTS ISSUES RELATED TO SAME; ATTENTION TO STRATEGY
                                        REGARDING SAME. (2.00 HOURS)

                               03/11/09 [Timekeeper name redacted–(b)(6)]: (TREASURY\GENERAL) EMAILS TO TEAM
                                        REGARDING STATUS. BEGIN PREPARATION OF WEEKLY REPORT TEMPLATE;
                                        CONFERENCE WITH [name redacted–(b)(6)] AND [name redacted–(b)(6)]
                                        REGARDING SAME. (2.00 HOURS)


                        Of the amounts questioned by SIGTARP, $3,971 were for administrative
                        expenses and fees, such as word processing, preparing fee bills, reviewing the
                        OFS contract and task orders, and addressing conflicts of interest issues. As
                        specified in the FAR, under labor-hour contracts, hourly rates already include
                        wages, indirect costs, and general and administrative expenses. The FDIC Outside
                        Counsel Deskbook expressly prohibits fees for invoice preparation or review.
                        OFS should have denied these types of administrative charges.

                        SIGTARP Questioned $57,939 of Bingham’s Legal Fees
                        On March 30, 2009, OFS entered into a contract with this law firm to provide
                        legal services related to Treasury’s TARP investments related to Small Business
                        Administration (“SBA”) loans and securities backed by SBA loans. The contract
                        had a $2,000,000 maximum value.17 In total, OFS paid Bingham $270,524 for its
                        services under this contract.

                        Of the sample of $67,383 of Bingham’s legal fees and expenses SIGTARP
                        reviewed, SIGTARP questioned $57,939 that OFS paid to Bingham. At the time

17
     Between January 25, 2010, and January 28, 2010, two task orders were awarded under the contract for work performed
     through August 31, 2010.


SIGTARP 11-004                                                                                       September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                 20




                  of the audit, these charges were not supported by adequate documentation because
                  they either were block billed, or did not contain enough detail for SIGTARP to
                  determine whether the charges were reasonable, as illustrated in the following
                  examples:

                     Block Billing –
                       06/23/09 [Timekeeper name redacted–(b)(6)]: CONFERENCE WITH [Timekeeper name
                                redacted–(b)(6)] AND [Timekeeper name redacted–(b)(6)] REGARDING REVISING
                                MPA FOR SENIOR NOTE PROVISIONS; REVISE DRAFT, INCORPORATING CPP TERMS.
                                (11.75 HOURS)
                       06/24/09 [Timekeeper name redacted–(b)(6)]: CALL WITH TREASURY REGARDING MPA
                                AND TERM SHEET; INTERNAL DISCUSSIONS REGARDING SAME; REVISE AND
                                CIRCULATE MPA AND TERM SHEET. (8.00 HOURS)


                     Inadequate Detail –
                       06/15/09 [Timekeeper name redacted–(b)(6)]: CONFERENCE CALL WITH [name redacted–
                                (b)(6)]; SECOND CALL WITH [name redacted–(b)(6)] AND TREASURY; MEET WITH
                                DEAL TEAM. (1.75 HOURS)

                       06/15/09 [Timekeeper name redacted–(b)(6)]: TELEPHONE CONFERENCE WITH [name
                                redacted–(b)(6)]; TELEPHONE CONFERENCE WITH [name redacted–(b)(6)] AND
                                TREASURY. (1.25 HOURS)




SIGTARP 11-004                                                                           September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                              21




                      The OFS Process for Awarding Legal Service
                      Contracts Provided Adequate Price Competition
                      In order to determine whether OFS received fair prices for legal services, it was
                      necessary to review Treasury’s contracting process with the law firms. As of
                      March 31, 2011, OFS had entered into 35 legal service contracts with 21 different
                      law firms.18 OFS awarded 15 legal service contracts using a narrowed
                      competitive field and compressed timeframes (by citing an unusual and
                      compelling urgency as allowed under the FAR); 14 through full and open
                      competitions; five using the General Services Administration’s (“GSA”) Federal
                      Supply Schedule; and one through simplified acquisition procedures for contracts
                      under $100,000. A list of all legal service contracts awarded by OFS is shown in
                      Appendix E.

                      The Emergency Economic Stabilization Act of 2008 (“EESA”) allowed the
                      Secretary of the Treasury to waive any provision of the FAR if the Secretary
                      determined that “urgent and compelling circumstances make compliance with
                      such provisions contrary to the public interest.” Treasury has not, however, made
                      use of this waiver authority in its contracting for legal services. The FAR
                      therefore governs OFS’ contracting procedures.

                      According to OFS, because of the length of time required to issue contracts using
                      full and open competitions,19 OFS awarded contracts for legal services using a
                      narrowed competitive field and compressed timeframes as an interim measure.
                      The OFS contract files that SIGTARP reviewed showed that at the time the
                      contracts in SIGTARP’s sample were being processed in January 2009, OFS was
                      also working on an omnibus procurement for legal services. The goal of the
                      omnibus procurement was to pre-qualify law firms to provide legal services in
                      particular areas so that when a project arose in one of those areas, OFS could
                      move quickly to retain one of the prequalified firms. However, because that
                      procurement was expected to take three to five months, the omnibus procurement
                      would not eliminate the need for other legal procurements awarded based on an
                      unusual and compelling urgency. As shown in Appendix E, OFS awarded
                      contracts under its omnibus procurement for legal services in August 2010.

                      For the contracts SIGTARP reviewed, OFS justified the competitions by citing an
                      unusual and compelling urgency, as allowed under FAR 6.302-2.20 In reviewing

18
   Additional information on services provided to OFS by other Treasury offices and the responsibilities of Treasury’s
   contracting officer and OFS COTRs is shown in Appendix D.
19
   According to OFS, under normal circumstances: for a large commercial acquisition the requested response time is
   approximately 30 days; for a non-commercial acquisition, approximately six weeks; for a GSA schedule acquisition,
   approximately two weeks; and for a competitive task order from a multiple award indefinite-delivery, indefinite-
   quantity contract the requested response time is approximately 10 days, unless the need is urgent.
20
   FAR 6.302-2, Unusual and Compelling Urgency, provides the authority, describes the proper application, and defines
   the limitations of contracts issued using other than full and open competitions justified under this provision.


SIGTARP 11-004                                                                                       September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                                 22




                      the sample of competitions conducted by OFS, SIGTARP found that they were in
                      compliance with FAR requirements, and were consistent with the OFS acquisition
                      procedures that became effective in November 2009. Under the FAR and the
                      2009 OFS procedures, OFS was allowed to limit the number of offerors, offeror
                      response times, and OFS evaluation times so that contracts could be awarded
                      more quickly. Nonetheless, the procedures OFS used for these simplified
                      acquisitions included all the key steps in a normal acquisition.

                      SIGTARP reviewed the statements of work in contracts awarded to the sampled
                      firms to determine whether they were unusually narrow, specific, or otherwise
                      appeared to have been steered to a particular contractor. SIGTARP concluded
                      that they were sufficiently general and objectively described the tasks required,
                      and did not appear to favor any particular contractor.
                       
                      Under FAR 6.302-2, Unusual and Compelling Urgency, agencies are required to
                      request offers from as many potential sources as practicable under the
                      circumstances. When reviewing the solicitations in SIGTARP’s sample,
                      SIGTARP found that OFS issued requests for proposals to five to eight law firms
                      for each solicitation. SIGTARP’s review of these solicitations showed that OFS
                      received from two to six proposals for each solicitation. OFS evaluated each firm
                      based on the criteria outlined in its source selection plan, and rated each firm on
                      the scale identified in Appendix F to determine which would provide the “best
                      value”21 to the Government.

                      As described in FAR 8.405-1(c), in addition to price, when determining best
                      value, many other factors may be considered. OFS evaluated legal expertise,
                      management and staffing approach, mitigation of conflicts of interest, past
                      performance, and small business participation. OFS determined that, for each
                      solicitation, at least one and up to three of the proposals were technically
                      acceptable in all areas evaluated. SIGTARP concluded that OFS adequately
                      evaluated all qualified proposals and awarded contracts based on the best value.

                      For all proposals received, OFS also evaluated the contractors’ proposed pricing
                      to determine whether costs were reasonable. OFS compared the firms’ rates, by
                      labor category, to the independent Government cost estimate. OFS then
                      compared the total proposed price for all competing law firms with the total
                      estimated costs. SIGTARP concluded that OFS had created adequate price
                      competition in accordance with FAR 15.403-3(b).22
21
   As defined in the FAR, “best value” means the expected outcome of an acquisition that, in the Government’s estimation,
   provides the greatest overall benefit in response to the requirement.
22
   FAR 15.403-3(b), Adequate price competition, states that “When adequate price competition exists (see [FAR]
   15.403-1(c)(1)), generally no additional information is necessary to determine the reasonableness of price.” Under FAR
   15.403-1(c)(1), Adequate price competition, in general, a price is based on adequate price competition if (i) two or more
   responsible offerors, competing independently, submit priced offers that satisfy the Government’s expressed requirement,
   or (ii) there was a reasonable expectation, based on market research or other assessment, that two or more responsible
   offerors, competing independently, would submit priced offers in response to the solicitation’s expressed requirement, even
   though only one offer is received from a responsible offeror.


SIGTARP 11-004                                                                                         September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                             23




                      
                     SIGTARP also reviewed the justifications for each sampled contract and found
                     OFS to be in compliance with the provisions of FAR 6.303, Justifications, which
                     prescribes the required content of such justifications. The justifications were also
                     approved by the Treasury competition advocate as required by FAR 6.304,
                     Approval of the Justification. Overall, SIGTARP found that OFS followed its
                     procedures and FAR requirements and that OFS’ actions were sufficient, given
                     the urgent nature related to the need for legal services. Further, once the limited
                     competition contracts expired, OFS began awarding contracts using full and open
                     competition.

                     Finally, SIGTARP compared the hourly rates OFS paid the five law firms to rates
                     paid by other Federal entities. Two law firms in SIGTARP’s original sample had
                     legal service agreements with FDIC, and one had a GSA Federal Supply
                     Schedule.23 SIGTARP contacted FDIC and obtained information regarding rates
                     those firms charged FDIC. Although not directly comparable to other law firms
                     performing different tasks, the rates were similar and in some cases the rates
                     charged OFS were slightly less when compared to rates paid by FDIC and those
                     on the GSA Federal Supply Schedule. In addition, SIGTARP compared rates
                     published in a National Law Journal article24 to the law firms’ rates charged to
                     OFS. Of the firms in SIGTARP’s sample, three had rates published in this article.
                     All three firms provided OFS with a discount from those rates, ranging from 31%
                     to 44%, when compared to rates published in the article.




23
   The Federal Supply Schedule program, also known as the GSA Schedules Program or the Multiple Award Schedule
   Program, is directed and managed by GSA and provides Federal agencies with a simplified process for obtaining
   commercial supplies and services at prices associated with volume buying. Federal Supply Schedules and pricing are
   publically available.
24
   Jones, Leigh, “Law Firm Fees Defy Gravity,” The National Law Journal, 12/08/2008,
   http://www.law.com/jsp/nlj/PubArticleNLJ.jsp?id=1202426491654&slreturn=1&hbxlogin, accessed 06/10/2010.


SIGTARP 11-004                                                                                       September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             24




                 Update on SIGTARP’s Recommendations Made
                 in the Venable Report
                  In the Venable report, SIGTARP recommended that OFS adopt the legal fee bill
                  submission standards contained in FDIC’s Outside Counsel Deskbook, or
                  establish similarly detailed requirements for how law firms should prepare legal
                  fee bills and include the new requirements in its open legal service contracts. In
                  response, OFS did not specifically adopt FDIC or U.S. Bankruptcy Trustee
                  standards, but instead adopted a one-page guidance, which is contained in
                  Appendix H, that contains some FDIC or Trustee guidance but is not as detailed.
                  Although OFS has not incorporated this guidance into its formal policies, this
                  guidance addresses many of the issues in the Venable report as well as in this
                  report. For example, the new guidance provides that activities should not be
                  block billed, but instead should be billed in six-minute increments, which is an
                  important change. The new guidance also requires that there be detailed activity
                  descriptions and that any charges for meetings must include key attendees, the
                  subject of the meetings, and the participant’s role. It is not clear who is a key
                  attendee and why OFS is requiring only that key attendees be listed as opposed to
                  any attorney or paralegal. The new guidance also provides that the type of
                  activity (such as a phone call or research) be included. Although the type of
                  activity is important, as set forth in the Venable report, the FDIC Outside Counsel
                  Deskbook contrasts between a description of a time charge for “research,” which
                  lacks detail, and one for “legal research on statute of limitations issues,” which
                  provides more detail.

                  In the Venable report, SIGTARP recommended that OFS develop and incorporate
                  into its written policies specific instructions and guidance for OFS COTRs to use
                  when reviewing legal fee bills. OFS told SIGTARP that it has held training for its
                  COTRs and other staff on its new guidance to law firms and that it will work to
                  incorporate relevant portions of its training into written procedures. Because the
                  new guidance is one page and is not as detailed as other Federal entities’ best
                  practices, the procedures and training for OFS staff in implementing these
                  guidelines will be critical. SIGTARP will continue to monitor OFS’
                  implementation of written procedures and its modification of open contracts to
                  include the new guidance.

                  Finally, SIGTARP recommended in the Venable report that OFS review
                  previously paid legal fee bills to identify unreasonable or unallowable charges and
                  seek reimbursement for those charges as appropriate. OFS agreed to adopt this
                  recommendation, but stated that it would review paid invoices in connection with
                  contract closeout procedures. OFS recently told SIGTARP that a Treasury
                  contracting officer has been assigned to review Venable’s invoices. In addition,
                  OFS stated that Treasury is engaged in discussions with Venable regarding
                  questioned invoice amounts. However, OFS has not yet sought reimbursement of
                  any amounts from Venable.


SIGTARP 11-004                                                                        September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                                 25




                  Conclusions and Recommendations
                  For the four law firms reviewed in this report, SIGTARP found weaknesses in
                  Treasury’s contracts and payment for legal services under TARP that were similar
                  to SIGTARP’s previous report on Venable. The Office of Financial Stability, the
                  office within Treasury that administers TARP, has paid the five law firms that
                  SIGTARP audited more than $27 million in legal fees and expenses. In
                  SIGTARP’s Venable report, SIGTARP questioned $676,840 in legal fees paid by
                  OFS because the bills contained block billing, inadequate description of services,
                  and administrative tasks being performed by attorneys. To an even greater extent,
                  SIGTARP found the same problems in its audit of Treasury’s contracting and
                  payment of legal services for four other law firms. The law firms were Simpson
                  Thacher & Bartlett LLP, Cadwalader Wickersham & Taft LLP, Locke Lord
                  Bissell & Liddell LLP, and Bingham McCutchen LLP.

                  SIGTARP audited a judgmental sample of $9.1 million in legal fee bills from
                  these four firms paid by OFS under TARP and questioned $8.1 million (89%).
                  SIGTARP found that the fee bills contained either no descriptions or vague
                  descriptions of work performed, block billing, unsupported expense charges, and
                  administrative charges that were not allowed under the contract. As a result, OFS
                  would not have been able to assess adequately the reasonableness of the fees it
                  paid. Although SIGTARP questioned fee bills from all of the law firms audited,
                  this does not mean that all the fees and expenses SIGTARP questioned were
                  unreasonable.

                  The most striking examples of problematic fee bills were from Simpson Thacher,
                  which charged OFS $5.8 million in fees and expenses without providing any
                  description of the work performed and without providing any receipts, or
                  adequate documentation, for expenses. Although OFS questioned some charges,
                  resulting in resubmitted bills, it still paid $5.8 million for original and resubmitted
                  bills that had no description of work and no contractually required receipts. OFS
                  had no way of knowing whether these fees and expenses were allocable to the
                  contract and reasonable and allowable (the requirements for payment under FAR).
                  In addition, OFS overpaid Simpson Thacher $68,936 for its foreign subcontractor,
                  even though the subcontractor was not preapproved and Simpson Thacher
                  charged as much as $520 per hour more than the maximum hourly rate under the
                  contract.

                  SIGTARP found that OFS’ then-existing legal service contracts and review
                  procedures caused it to fall short in comparison to the best practices identified by
                  SIGTARP and used by other Federal entities. Although SIGTARP concluded that
                  the OFS process for awarding legal service contracts provided adequate price
                  competition and that the process complied with FAR requirements, SIGTARP
                  found weaknesses in both the OFS contracts with the law firms and OFS policies
                  for reviewing legal fee bills. Similar to SIGTARP’s findings in the Venable
                  report, the OFS contracts for legal services with these law firms do not contain


SIGTARP 11-004                                                                           September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                               26




                  sufficiently detailed requirements or instructions on how law firms should prepare
                  fee bills or how they should describe discrete tasks within each fee bill. In
                  addition, as stated previously in the Venable report, the OFS COTRs were not
                  given specific standards or instructions on how to review legal fee bills for
                  accuracy and reasonableness. As a result, in some instances OFS overpaid for
                  legal services.

                  The lack of specific, documented invoice review procedures also meant that all
                  invoices were not subject to the same level or consistency of review. For
                  example, in reviewing fee bills from the law firms, some COTRs rejected fee bills
                  that included labor categories such as “counsel” not included in the contract,
                  while other COTRs approved and paid them. One OFS COTR paid counsel at
                  partner rates and another OFS COTR paid them at associate rates. SIGTARP also
                  noted that OFS paid for attorneys billed in labor categories other than those
                  agreed to in the contract and task orders. While this may have reduced OFS legal
                  fees, the substitution of labor categories and rates after contract award was not
                  properly documented in contract modifications. In response to the Venable
                  report, OFS agreed to adopt new guidance for law firms on submission of fee
                  bills.

                  SIGTARP reiterates the recommendations that it made in the Venable report. In
                  response to SIGTARP’s recommendation made in the Venable report that OFS
                  review previously paid legal fee bills to identify unreasonable or unallowable
                  charges, and seek reimbursement for those charges, OFS replied that it would
                  review contracts for questionable invoice amounts during contract closeout.
                  However, OFS should initiate reviews now and not wait until the close of a
                  contract to question paid invoices.

                  Regarding OFS’ process for awarding legal service contracts, SIGTARP found
                  that OFS followed its procedures and FAR requirements and that OFS’ actions
                  were sufficient, given the urgent nature related to the need for legal services. In
                  addition, although not directly comparable to other law firms performing different
                  tasks, the rates were similar and in some cases the rates charged OFS were
                  slightly less when compared to rates paid by FDIC and those on the GSA Federal
                  Supply Schedule.

                  OFS’ legal contracting practices and fee bill review practices in place up to the
                  time of our Venable report created an unacceptable risk that Treasury was
                  overpaying for legal services. If SIGTARP questioned $8.1 million out of a
                  $9.1 million sample, it is highly likely that these billing problems exist outside of
                  SIGTARP’s sample. As such, SIGTARP makes the following recommendations:

                  1. Treasury should specifically determine the allowability of $7,980,215 in
                     questioned, unsupported legal fees and expenses paid to the following law
                     firms:



SIGTARP 11-004                                                                          September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                           27




                        Simpson Thacher & Bartlett LLP                        $5,791,724
                        Cadwalader Wickersham & Taft LLP                      $1,983,685
                        Locke Lord Bissell & Liddell LLP                        $146,867
                        Bingham McCutchen LLP (novated from McKee Nelson LLP)    $57,939

                  2. The Treasury contracting officer should disallow and seek recovery from
                     Simpson Thacher & Bartlett LLP for $91,482 in questioned, ineligible fees
                     and expenses paid that were not allowed under the OFS contract. Specifically,
                     those are $68,936 for labor hours billed at rates in excess of the allowable
                     maximums set in contract TOFS-09-0001, task order 1, and $22,546 in other
                     direct costs not allowed under contract TOS-09-007, task order 1.

                  3. Treasury should promptly review all previously paid legal fee bills from all
                     law firms with which it has a closed or open contract to identify unreasonable
                     or unallowable charges and seek reimbursement for those charges, as
                     appropriate.
        
                  4. Treasury should require in any future solicitation for legal services multiple
                     rate categories within the various partner, counsel, and associate labor
                     categories. The additional labor rate categories should be based on the
                     number of years the attorneys have practiced law.

                  5. Treasury should preapprove specified labor categories and rates of all
                     contracted legal staff before they are allowed to work on and charge time to
                     OFS projects.




SIGTARP 11-004                                                                        September 28, 2011
LEGAL FEES PAID UNDER THE TROUBLED ASSET RELIEF PROGRAM: AN EXPANDED REPORT                             28




                  Management Comments and SIGTARP’s Response
 
                  Treasury provided comments on a draft of this report in a memorandum dated
                  September 28, 2011. Treasury’s memorandum is reproduced in full in
                  Appendix K.

                  In its response, Treasury neither agreed nor disagreed with the five
                  recommendations regarding OFS’ review and payment of legal fees and related
                  costs, but stated that it is committed to working with SIGTARP to address the
                  recommendations. SIGTARP will follow up on Treasury’s specific actions to
                  address the recommendations. Treasury also stated in its response that it was well
                  positioned to judge the quality and value of assistance provided by its contracted
                  legal staff and to ensure that taxpayer funds were used wisely. SIGTARP
                  disagrees with Treasury’s position on the value it received – OFS received legal
                  fee bills that contained block-billed charges, vague and inadequate descriptions of
                  work performed, and charges for administrative functions not allowed under the
                  contracts. Because OFS did not question these legal fee bills and request more
                  detailed information, it could not have determined that amounts billed and paid
                  were reasonable.
 




SIGTARP 11-004                                                                        September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                29




   Appendix A – Scope and Methodology
   SIGTARP performed this audit under authority of Public Law 110-343, as amended, which also
   incorporates the duties and responsibilities of inspectors general under the Inspector General Act
   of 1978, as amended. SIGTARP initiated this audit at the request of Senator Tom Coburn, M.D.
   The audit’s objectives were to examine the processes used to ensure that (1) professional services
   contract prices are fair and reasonable; and (2) invoices submitted by the contractors accurately
   reflect the work performed. For one law firm, Venable LLP, SIGTARP reported results on
   April 14, 2011, related to the second objective in audit report number SIGTARP-11-003,
   “Treasury’s Process for Contracting for Professional Services under the Troubled Asset Relief
   Program.”

   To determine how OFS established and implemented contracting procedures, including those
   regarding conflicts of interest, SIGTARP interviewed procurement officials in OFS and
   Treasury’s Procurement Services Division. SIGTARP reviewed relevant Treasury policies and
   procedures issued before OFS was created that were used by OFS until it issued its own policies.
   SIGTARP also reviewed OFS contracts with law firms to understand the services to be provided
   and any billing requirements included in the contracts.

   To determine whether OFS policies and procedures were effective, SIGTARP audited a sample
   of invoices paid by OFS for legal services (“fee bills”) submitted by a sample of law firms and
   paid by OFS. Five law firms were judgmentally selected, based on Congressional interest and
   the dollar value of awarded contracts. SIGTARP selected the following five law firms for audit:

          Simpson Thacher & Bartlett LLP;
          Cadwalader Wickersham & Taft LLP;
          Locke Lord Bissell & Liddell LLP;
          Bingham McCutchen LLP (which merged with McKee Nelson LLP); and
          Venable LLP.

   Audit fieldwork included tests of transactions and interviews conducted at OFS offices in
   Washington, D.C. Additional tests and interviews, including a walk-through of billing practices
   and procedures and reviews of timekeeping and billing policies, were conducted in the law
   offices of Locke Lord Bissell & Liddell in Washington, D.C., and Venable LLP in Baltimore,
   Maryland. As shown in Table 2, the scope of the audit covered all $26.9 million in payments to
   the five law firms made between October 3, 2008 – the inception of TARP – and March 31,
   2011. For that period, SIGTARP selected for audit $10.1 million in payments OFS made to the
   five law firms.




   SIGTARP 11-004                                                                        September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                         30




   TABLE 2

    AUDITED PAYMENTS TO LAW FIRMS
                                                                                  Paid Legal Fees
                                                                                    and Expenses                                      Percent
    Law Firm                                          Contract Number              as of 3/31/2011                  Audited           Audited
                                                      TOFS-09-0001                       $1,530,023              $1,530,023              100%
                                                                                                     1
    Simpson Thacher & Bartlett LLP                    TOFS-09-0009                       3,422,093                 3,422,093             100%
                                                      TOS-09-007                            931,090                  931,090             100%
                                                      TOFS-09-D-0006                     17,392,786                2,869,998              17%
                                           2
    Cadwalader Wickersham & Taft LLP                  TOFS-09-D-0011                      1,278,696                         0               0%
                                                      TOS-09-020                            409,955                         0               0%
    Locke Lord Bissell & Liddell LLP                  TOS-09-022                            272,243                  272,243             100%
    Bingham McCutchen LLP
    (novated from McKee Nelson LLP)                   TOFS-09-D-0005                        270,524                   67,383              25%
       Subtotal Related to This Report                                                 $25,507,410               $9,092,830               36%
                  3
    Venable LLP                                       TOFS-09-D-0002                      1,394,723                1,027,049              74%
       Total for This Audit                                                            $26,902,133              $10,119,879               38%
   Notes: Numbers affected by rounding.
   1
     Simpson Thacher’s contract number TOFS-09-0009 is still active. Between 02/04/2011, when OFS provided SIGTARP fee bills for audit, and
     03/31/2011, OFS paid additional Simpson Thacher fee bills totaling $83,824. The additional fee bills were not subject to SIGTARP’s audit.
   2
     OFS awarded contract number TOFS-10-D-0006 to Cadwalader Wickersham & Taft after SIGTARP’s audit began. It was, therefore, not subject to
     audit. As of 03/31/2011, $3,789,815 had been obligated and $992,237 was expended under this contract.
   3
     All amounts shown for Venable LLP were previously reported in audit report number SIGTARP 11-003, “Treasury’s Process for Contracting for
     Professional Services under TARP,” issued April 14, 2011, and are shown here for comparative purposes only.
   Source: SIGTARP analysis of data provided by OFS.




   SIGTARP conducted this performance audit in accordance with generally accepted government
   auditing standards prescribed by the Comptroller General of the United States. Those standards
   require that SIGTARP plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for findings and conclusions based on the audit objectives. SIGTARP
   conducted this audit from May 2010 through May 2011. SIGTARP believes that the evidence
   obtained provides a reasonable basis for the findings and conclusions based on the audit
   objective.

   Limitations on Data
   SIGTARP was unable to collect complete timekeeping information for attorneys providing legal
   services to OFS. One law firm asserted that disclosing descriptions of tasks performed for the
   firm’s other clients would violate those clients’ attorney-client privileges, and, therefore,
   SIGTARP did not collect this information from any of the law firms. Without this information,
   SIGTARP was not able to determine whether OFS was paying for duplicated or recycled
   attorney work products. In addition, entities performing work under contract to OFS in support
   of TARP are required to disclose organizational conflicts of interest. Certifications regarding
   conflicts of interest are required from contractors (“self-certifications”), and OFS has indicated
   that it has no process for independently verifying self-certifications. Because contractors self-
   identify conflicts of interest, instances of non-compliance could have been omitted.




   SIGTARP 11-004                                                                                                               September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP               31




   Use of Computer-Processed Data
   SIGTARP did not use OFS computer-processed data during this audit. Legal fee bills were not
   submitted electronically by law firms or processed electronically by OFS.

   Internal Controls
   As part of this audit, SIGTARP reviewed Locke Lord Bissell & Liddell’s and Venable’s internal
   control framework for collecting and reporting time charges. SIGTARP also examined OFS
   controls for contract issuance and administration.

   Prior Coverage
   As stated above, SIGTARP issued an earlier report as part of this audit. No other audits with the
   same or similar audit objectives have been performed on OFS’ process for contracting for
   professional services under the Troubled Asset Relief Program.




   SIGTARP 11-004                                                                        September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                                              32




   Appendix B – Potential Billing Issues
                                                                                                                                                SIGTARP
                                                                                                                                                              1
   Fees for Labor                    Description                                                                                                Classification
                                     Invoice preparation, review, or corrections to an invoice required by the OFS contracting
   Administrative Tasks                                                                                                                         Unallowable
                                     officer’s technical representative or Treasury’s contracting officer.
                                     Aggregating or lumping together multiple tasks in the same time charge, collectively                                        2
   Block Billing                                                                                                                                Unsupported
                                     totaling more than 0.5 hours.
   Clerical Fees                     Hourly fees for time spent photocopying, sending facsimiles, etc.                                          Unallowable
                                     Secretarial or clerical overtime that has not been approved by the OFS contracting
   Clerical Overtime                                                                                                                            Unallowable
                                     officer’s technical representative.
   Contract Review                   Proposal/Task Order/Contract Review. (Administrative items added by SIGTARP.)                              Unallowable
                                     Excessive intra-office conferences between attorneys or paralegals for the purpose of
   Excessive Conferences                                                                                                                        Unsupported
                                     providing instruction or status.
   Excessive Review                  Excessive time spent in “file review.”                                                                     Unsupported
   Excessive Revision                Excessive time spent in “review and revision” of documents.                                                Unsupported
   Excessive Staff                   Excessive number of attorneys performing services on a matter.                                             Unsupported
   Inadequate Description            Insufficient or incomplete description of tasks (for example: “research”).                                 Unsupported
                                     Charging attorney time for tasks that should be performed efficiently and effectively at
   Labor Category                    less expense by a paralegal or secretary, or charging paralegal time for tasks that                        Unsupported
                                     should be performed by clerical workers.
                                     Hours charged at a more senior attorney rate when a matter should be handled by a less
   Labor Rate                                                                                                                                   Unsupported
                                     senior attorney.
                                     Educational or development costs to become generally familiar with statutory and case
   Training Time                                                                                                                                Unallowable
                                     law affecting Treasury.
                                     Services of billable individuals who have not been included on the approved rate
   Unapproved Staff                                                                                                                             Unsupported
                                     schedule.
   Unapproved Task                   Legal work on matters not approved (work should be tied to Statement of Work).                             Unallowable
                                     Value billing (billing based on the value of the information or service provided rather than
   Value Billing                                                                                                                                Unallowable
                                     billing based on time spent).
                                                                                                                                                SIGTARP
   Other Direct Costs                Description                                                                                                Classification
   Commuting                         Daily commuting expenses.                                                                                  Unallowable
   Copies                            In-house photocopying charges at more than $0.08 per copy.                                                 Unallowable
   Copying                           Clerical time for photocopying, sending facsimiles, filing, etc.                                           Unallowable
                                     Any costs relating to filing fees in U.S. District Courts or Courts of Appeal, which OFS is
   Filings
                                     not required to pay (pursuant to 12 U.S.C. 1819(b)(4)).                                                    Unallowable
   Postage                           Ordinary postage (other than express, messenger, etc.).                                                    Unallowable
   Research                          Charges other than “actual time” charges for electronic research (Westlaw, Lexis, etc.).                   Unallowable
   Tax                               Sales tax (except for lodging) or surcharges imposed by utilities or telephone services.                   Unallowable
   Training                          Charging attorney time for preparing and presenting training to OFS.                                       Unallowable
   Travel                            Approved travel time at 50% of approved timekeeper rate.                                                   Allowable
   Note: Not all potential billing issues were identified during SIGTARP’s review of fee bills.
   1
       Under FAR 31.201-2, Determining Allowability, a cost is “allowable” only when it complies with all of the following five requirements. The cost must:
       (1) be reasonable (not exceed that which would be incurred by a prudent person in the conduct of a competitive business), (2) be allocable (incurred
       specifically for the contract), (3) meet standards promulgated by the Cost Accounting Standards Board or generally accepted accounting principles,
       (4) be within the terms of the contract, and (5) be within any limitations set forth in FAR Subpart 31.2, which prescribes the determination and proper
       treatment of costs in Government contracts with commercial organizations.
   2
       A cost is “unsupported” if, at the time of the audit, the cost is not supported by adequate documentation; for example, if the description of the associated
       task does not contain enough information to determine whether the task meets the five requirements to be “allowable,” as shown in Note 1.
   Source: FDIC Outside Counsel Deskbook, with administrative tasks related to contract and task order review, and value billing, added by SIGTARP.




   SIGTARP 11-004                                                                                                                             September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                    33




   Appendix C – Questioned Legal Fees by Category
        Category




                                                                         Bingham
                                                                                      Subtotal                     Total
                                                                       McCutchen
                           Simpson      Cadwalader    Locke Lord     LLP (novated      Related                       for
    Fee or Cost           Thacher &     Wickersham       Bissell &    from McKee       to This   Venable            This
                                                                                                        1
    Billing Issue        Bartlett LLP    & Taft LLP   Liddell LLP     Nelson LLP)       Report      LLP            Audit

    Block Billed                  $0     $1,841,336    $107,955          $40,724    $1,990,015   $416,797      $2,406,812
    Administrative
    Tasks                          0             0         3,971               0         3,971     20,638         24,609

    Inadequate Detail     5,855,374         33,058        10,717             863     5,900,012     12,265       5,912,277

    Labor Category                 0        14,304              0              0       14,304          0          14,304
    Travel (50% of
    full hourly rate)              0          3,091             0              0         3,091         0            3,091
    Block Billed and
    Administrative
    Tasks                          0             0        14,726               0       14,726      34,086         48,812
    Block Billed and
    Inadequate Detail              0        15,394         9,498          16,352       41,244     191,638        232,882
    Block Billed and
    Labor Category                 0        21,574              0              0       21,574          0          21,574
    Block Billed
    and Travel                     0        44,825              0              0       44,825          0          44,825
    Inadequate Detail
    and Labor
    Category                       0          3,979             0              0         3,979         0            3,979
    Block Billed,
    Administrative
    Tasks, and
    Inadequate Detail              0             0              0              0            0       1,416           1,416
    Block Billed,
    Inadequate Detail,
    and Travel                     0          2,013             0              0         2,013         0            2,013
    Copying Costs
    (over 8¢ per copy)             0          1,493             0              0         1,493         0            1,493
    No Receipts
    Provided for
    Other Costs                5,286             0              0              0         5,286         0            5,286
    Other Costs Not
    Allowed
    Under the Contract       22,546              0              0              0       22,546          0          22,546

    Research Costs                 0          2,618             0              0         2,618         0            2,618

    Total                $5,883,206      $1,983,685    $146,867          $57,939    $8,071,697   $676,840      $8,748,537




   SIGTARP 11-004                                                                                           September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                     34




   Appendix D – Contracting Services Provided to OFS by
   Other Treasury Offices and Responsibilities of Contracting
   Officers and Contracting Officer’s Technical
   Representatives
   OFS manages TARP, with key support services provided by other Treasury offices. For
   example, the Procurement Services Division solicits, negotiates, and awards contracts on behalf
   of OFS. Under FAR 1.602, Contracting Officers, only contracting officers are granted the
   authority to enter into, administer, and terminate contracts on behalf of the Government.
   Contracting officers are also responsible for ensuring performance of all necessary actions for
   effective contracting, ensuring compliance with the terms of the contract, and safeguarding the
   interests of the United States in its contractual relationships.

   Within the Procurement Services Division, Treasury’s contracting officers are delegated the
   authority to administer and/or terminate contracts on behalf of Treasury. The Department of the
   Treasury Acquisition Regulation, which supplements the FAR, allows the contracting officer to
   delegate certain responsibilities to a COTR.25 Accordingly, for each contract, the contracting
   officer appoints a COTR through a letter of designation, after the COTR is nominated by the
   program office.26 The letter of designation describes the authority as well as specific
   responsibilities of the COTR. Each contract identifies the responsible COTR.

   The contracting officer maintains the official contract file for all OFS procurements. However,
   while the contract is active, the COTR also creates and maintains working files to facilitate the
   contract management process. When the contract is complete, the COTR files are sent to the
   contracting officer and become part of the official contract file. The COTR also:

           monitors contractor performance to ensure that products and services conform to contract
            requirements;
           provides “technical direction” to the contractor within the scope of the contract’s
            specifications or work statements, such as instructions that direct or redirect work, shift
            the work between work areas or locations, fill in details regarding the work, and ensure
            tasks outlined in work statements are accomplished satisfactorily;
           assesses and reports on the contractor’s performance;
           authorizes payments to the contractor; and
           creates and maintains records of the administration of each contract.



   25
      The Department of the Treasury Acquisition Regulation states: “Requisitioning offices must nominate to the
      contracting officer an individual to act as the contracting officer’s technical representative in the administration
      and monitoring of a contract. Selection is to be based on the technical expertise and experience of the
      individual…” The COTRs’ authorities and responsibilities are communicated to them in their COTR Designation
      Memorandum, which is prepared for each contract.
   26
      Treasury program offices receiving support services through contracts are required to nominate a COTR in
      accordance with the Department of the Treasury Acquisition Regulation, which supplements the FAR.


   SIGTARP 11-004                                                                                           September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                  35




   Until September 2009, OFS used procedures issued by Treasury’s Procurement Services
   Division (“Treasury’s procedures”). Treasury’s procedures state that the COTR is responsible
   for, among other items, “Reviewing contractor invoices and supporting documentation for
   certification,” but include no specific instructions beyond that requirement. Moreover, while
   Treasury’s procedures address a broad array of procurement functions, such as tracking invoices
   and vouchers, they do not address precise activities required of COTRs in conducting reviews of
   legal fee bills or similar bills.

   After September 2009, OFS established its own procedures. SIGTARP reviewed OFS
   “Contracting Officer Technical Representative (COTR) Nomination and File Organization
   Procedures” (“COTR procedures”) and OFS “Administration Procedures” to determine whether
   these procedures are sufficient to ensure that payments are made only for invoices submitted by
   contractors that adequately and accurately reflect the work performed and that only include
   allowable costs. The COTR procedures state, in Section 4.3.1.2, Contract Performance
   Management, that COTR duties may include, “Reviewing contractor invoices to ensure costs are
   allocable to the contract, allowable pursuant to financial regulations, and reasonable.” However,
   the procedures do not provide specifics on allowable and unallowable costs, services, and
   charges; nor are COTRs separately provided this information as a guide to perform reviews of
   the fee bills. The OFS procedures are similar to Treasury’s procedures discussed earlier in that
   they do not provide specific instructions or guidelines that would serve as a basis for COTRs to
   review and question invoices.

   Although the OFS COTR procedures make no reference to the FAR regarding what is allowable,
   because the Secretary of the Treasury has not waived any provision of the FAR, the FAR still
   governs OFS contracts. Under FAR 31.201-2, Determining Allowability, a cost is allowable
   only when it complies with all of the following five requirements. The cost must: (1) be
   reasonable (not exceed that which would be incurred by a prudent person in the conduct of a
   competitive business), (2) be allocable (incurred specifically for the contract), (3) meet standards
   promulgated by the Cost Accounting Standards Board or generally accepted accounting
   principles, (4) be within the terms of the contract, and (5) be within any limitations set forth by
   FAR Subpart 31.2, which prescribes the determination and proper treatment of costs in
   Government contracts with commercial organizations.

   Treasury’s standard operating procedure for invoice control, dated February 28, 1994, state that a
   COTR’s responsibilities include, “Reviewing contractor invoices and supporting documentation
   for certification.” Section IV, Responsibilities of a COTR, also lists other responsibilities:
    
       The COTR is designated … to furnish technical clarification, monitor contract performance and maintain an
       arm’s length relationship with the contractor throughout the term of his appointment. The COTR’s technical
       knowledge in the areas of performance covered by the contract allows him to function as the Government
       representative most capable of providing technical direction to the contractor. Generally, a COTR’s
       responsibilities include:
           a.   Controlling all Government technical interface with contractor personnel;
           b.   Assuring that appropriate action is taken on technical correspondence pertaining to contract/delivery
                orders and ensuring that adequate files are maintained;
           c.   Furnishing documentation on any request for change, deviation, or waiver to the contracting officer for
                action;
           d.   Reviewing contractor invoices and supporting documentation for certification;


   SIGTARP 11-004                                                                                        September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                       36




           e.        Notifying the contracting officer of performance problems and recommending corrective action;
           f.        Reviewing contract deliverables and accepting/rejecting them;
           g.        Evaluating contractor proposals and developing Government estimates;
           h.        Preparing contractor performance evaluations; and
           i.        Accounting [for] and monitoring any Government furnished property.

   OFS “Contracting Officer Technical Representative (COTR) Nomination and File Organization
   Procedures,” dated November 30, 2009, state, in Section 4.3.1.2, Contract Performance
   Management, that COTR duties may include, “Reviewing contractor invoices to ensure costs are
   allocable to the contract, allowable pursuant to financial regulations, and reasonable.”
   Specifically, the section 4.3, COTR Duties, states in part:
       4.3.1. COTR’s duties can be categorized as acquisition planning; proposal evaluation and negotiation; and
              performance management. Specific COTR responsibilities may include:
                1. Acquisition planning
                    a. Gathering requirements and drafting statements of work or related documents
                    b. Conducting market research to identify qualified sources
                    c. Preparing documentation to support Program and contract determinations and
                    d. Evaluating contractor proposals for technical and performance
                2.     Contract performance management
                       a. Hosting post-award orientations
                       b. Conducting regular meetings and maintain[ing] effective communications with contractor
                          management
                       c. Preparing periodic cost accrual and contact performance reports
                       d. Reviewing contractor invoices to ensure costs are allocable to the contract, allowable pursuant to
                          financial regulation, and reasonable
                       e. Coordinating audits of contractor records as required
                       f. Providing technical direction and work authorization
                       g. Performing quality assurance reviews of contractor products or services to ensure compliance with
                          contract terms and conditions
                       h. Managing COTR files
                       i. Overseeing contract logistics requirements, such as information technology, security, facilities,
                          and government furnished property




   SIGTARP 11-004                                                                                             September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                       37




   Appendix E – OFS Legal Service Contracts
   (Issued October 3, 2008, through March 31, 2011)

   Date of    Contract                                                                            Obligated       Expended
   Award      Number                 Vendor                      Purpose                              Value          Value

                    Contracts Awarded through Limited Competition Citing Unusual and Compelling Urgency

                                 Simpson Thacher &          Legal services for the
   10/10/08   TOS-09-007                                                                           $931,090        $931,090
                                 Bartlett MNP LLP           implementation of TARP
                                 Sonnenschein Nath &        Legal services related to auto
   11/07/08   TOS-09-010A                                                                         $2,722,326      $2,702,441
                                 Rosenthal LLP              industry loans
                                 Cadwalader Wickersham
   01/27/09   TOS-09-020                                    Bankruptcy legal services              $409,955        $409,955
                                 & Taft LLP
                                                            Initiate interim legal services in
                                 Locke Lord Bissell
   02/12/09   TOS-09-022                                    support of Treasury                    $272,243        $272,243
                                 & Liddell LLP
                                                            investments under EESA
                                 Simpson Thacher &
   02/20/09   TOFS-09-D-0001                                Capital Assistance Program (I)        $2,047,872      $1,530,023
                                 Bartlett MNP LLP
                                                            Capital Assistance Program (II)
   02/20/09   TOFS-09-D-0002     Venable LLP                                                      $1,394,724      $1,394,724
                                                            Legal Services
                                                            Small Business Administration
                                                            initiative, legal services –
   03/30/09   TOFS-09-D-0005     Bingham McCutchen LLP                                             $422,355        $270,524
                                                            contract novated from McKee
                                                            Nelson LLP
                                 Cadwalader Wickersham
   03/30/09   TOFS-09-D-0006                                Auto investment legal services       $17,392,786     $17,392,786
                                 & Taft LLP

   03/30/09   TOFS-09-D-0007     Haynes and Boone LLP       Auto investment legal services         $345,746        $345,746

                                 Sonnenschein Nath &
   03/30/09   TOFS-09-D-0004                                Auto investment legal services        $1,834,193      $1,834,193
                                 Rosenthal LLP
                                                            Legal services for work under
                                                            Treasury’s Public-Private
   05/26/09   TOFS-09-D-0010     Anderson, McCoy & Orta                                           $4,068,834      $2,286,996
                                                            Investment Fund (PPIF)
                                                            program
                                                            Legal services for work under
                                 Simpson Thacher &          Treasury’s Public-Private
   05/26/09   TOFS-09-D-0009                                                                      $7,849,026      $3,505,917
                                 Bartlett MNP LLP           Investment Fund (PPIF)
                                                            program
                                 Cadwalader Wickersham
   07/30/09   TOFS-09-D-0011                1               Restructuring legal services          $2,049,979      $1,278,696
                                 & Taft LLP

   07/30/09   TOFS-09-D-0012     Debevoise & Plimpton LLP Restructuring legal services             $159,175          $1,650

                                 Fox, Hefter, Swibel, Levin
   07/30/09   TOFS-09-D-0013                                Restructuring legal services            $84,125         $26,493
                                 & Carol, LLP

                                                            Subtotals                            $41,984,429     $34,183,477

                  Contracts Awarded Using Simplified Acquisition Procedures for Contracts under $100,000

                                                            Small Business Administration
   09/17/10   TOFS-10-O-0021     Bingham McCutchen LLP      Section 7(a) Security Purchase          $19,975         $11,177
                                                            Program




   SIGTARP 11-004                                                                                              September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                                                  38




                                               Contracts Awarded through Full and Open Competition

                                             Sonnenschein Nath &       Legal services for the purchase
   12/10/08        TOS-09-014C                                                                             $249,999            $102,769
                                             Rosenthal LLP             of asset-backed securities
                                                                       Omnibus procurement for legal
   08/06/10        TOFS-10-D-0005            Alston & Bird LLP                                            $1,285,416             $2,277
                                                                       services
                                             Cadwalader Wickersham     Omnibus procurement for legal
   08/06/10        TOFS-10-D-0006                                                                         $3,789,815           $992,237
                                             & Taft LLP                services
                                             Fox, Hefter, Swibel, Levin Omnibus procurement for legal
   08/06/10        TOFS-10-D-0007                                                                          $181,200                $660
                                             & Carol, LLP               services
                                                                       Omnibus procurement for legal                 2
   08/06/10        TOFS-10-D-0008            Haynes and Boone, LLP                                               —                   —
                                                                       services
                                             Hughes Hubbard &          Omnibus procurement for legal
   08/06/10        TOFS-10-D-0009                                                                          $113,655            $107,301
                                             Reed LLP                  services
                                                                       Omnibus procurement for legal               2
   08/06/10        TOFS-10-D-0010            Love & Long LLP                                                     —                   —
                                                                       services
                                             Orrick Herrington         Omnibus procurement for legal               2
   08/06/10        TOFS-10-D-0011                                                                                —                   —
                                             Sutcliffe LLP             services
                                             Paul, Weiss, Rifkind,     Omnibus procurement for legal
   08/06/10        TOFS-10-D-0012                                                                         $3,565,041           $294,118
                                             Wharton & Garrison LLP    services
                                                                       Omnibus procurement for legal               2
   08/06/10        TOFS-10-D-0013            Perkins Coie LLP                                                    —                   —
                                                                       services
                                                                       Omnibus procurement for legal               2
   08/06/10        TOFS-10-D-0014            Seyfarth Shaw LLP                                                   —                   —
                                                                       services
                                             Shulman, Rogers, Gandal, Omnibus procurement for legal
   08/06/10        TOFS-10-D-0015                                                                          $313,725                  —
                                             Pordy & Ecker, PA        services
                                             Sullivan Cove Reign       Omnibus procurement for legal               2
   08/06/10        TOFS-10-D-0016                                                                                —                   —
                                             Enterprises JV            services
                                                                       Omnibus procurement for legal
   08/06/10        TOFS-10-D-0017            Venable LLP                                                   $498,100                $190
                                                                       services

                                                                       Subtotals                          $9,996,951         $1,499,552

                            Contracts Awarded through General Services Administration Federal Supply Schedule

                                             Hughes Hubbard &          Legal services for the Capital
   10/29/08        T09BPA-002                                                                             $3,060,921         $2,835,357
                                             Reed LLP                  Purchase Program
                                             Squire, Sanders &         Legal services for the Capital
   10/29/08        T09BPA-001                                                                             $5,787,939         $2,687,999
                                             Dempsey LLP               Purchase Program
                                             Hughes Hubbard &          Document production services
   12/22/09        TOFS-10-B-0001                                                                         $1,097,205           $699,683
                                             Reed LLP                  and litigation support
                                             Squire, Sanders &
   04/08/10        TOFS-10-B-0002                                      Housing legal services             $1,229,350           $774,012
                                             Dempsey LLP

   07/22/10        TOFS-10-G-0007            Schiff Hardin LLP         Housing legal services              $537,375             $97,526

                                                                       Subtotals                         $11,712,790         $7,094,577

   Total Obligations and Expenditures                                                                    $63,714,145         $42,788,782

   Notes: Numbers may not total due to rounding.
   1
       $1.4 million deobligation submitted on 09/30/2010.
   2
       If no task orders have been awarded, no funds are obligated.
   Source: OFS.




   SIGTARP 11-004                                                                                                        September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                  39




   Appendix F – OFS Proposal Evaluation Rating Scale and
   Definition of Rating Terms
                                       Evaluation Rating Scale

   OFS Technical Evaluation Panels evaluated all non-price factors in legal service contract
   proposals by providing adjectival ratings using the following evaluation rating scale:

   Outstanding (O) – Meets all requirements of the Request for Proposal (“RFP”) and provides
   significant advantages to the Government. A rating of outstanding is consistent with a judgment
   that the proposal presents an extremely low risk of poor performance to the Government.

   Good (G) – Meets all requirements of the RFP and provides advantages to the Government. A
   rating of good is consistent with a judgment that the proposal presents a low risk of poor
   performance to the Government.

   Satisfactory (S) – Meets all requirements of the RFP. A rating of satisfactory is consistent with
   the judgment that the proposal presents an average risk of poor performance to the Government.

   Marginal (M) – Meets most or some requirements of the RFP, but is either significantly weak
   on an RFP requirement, weak on a high number of RFP requirements, or vague with respect to
   the firm’s ability to meet certain RFP requirements. A rating of marginal is consistent with the
   judgment that the proposal presents an above average risk of poor performance to the
   Government.

   Unsatisfactory (U) – Does not meet the requirements of the RFP. A rating of unsatisfactory is
   consistent with one or more significant weaknesses, a deficiency, or a non-responsive proposal.
   This rating is consistent with the judgment that the proposal presents a high risk of poor
   performance to the Government.

         Identification of Strengths, Weaknesses, Significant Weaknesses and Deficiencies

   The following are the definitions of these terms:

          Term                                             Definition
                          A quality element in the proposal that appreciably (measurably,
         Strength         perceptibly) increases the chances of successful contract performance or
                          provides an advantage to the Government.
                          A flaw in the proposal that increases the risk of unsuccessful contract
       Weaknesses
                          performance.
        Significant       A flaw in the proposal that significantly increases the risk of unsuccessful
        Weakness          contract performance.
                          A flaw in the proposal that calls into question the ability of the contractor
        Deficiency
                          to perform the work in the Statement of Work.



   SIGTARP 11-004                                                                          September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                               40




   Appendix G – Payment-Related FAR Clauses
   Incorporated into OFS Contracts
   In the contracts audited by SIGTARP, the Federal Acquisition Regulation (“FAR”) was
   referenced in the contracts, which stated: “This contract incorporates one or more [FAR] clauses
   by reference, with the same force and effect as if they were given in full text.” The following
   two FAR clauses dealing with payments to contractors were incorporated by reference into the
   contracts:

          FAR 52.232-1, Payments, which states in part:
              The Government shall pay the Contractor, upon the submission of proper invoices or vouchers, the
              prices stipulated in this contract for supplies delivered and accepted or services rendered and
              accepted, less any deductions provided in this contract. Unless otherwise specified in this contract,
              payment shall be made on partial deliveries accepted by the Government if—
                  (a) The amount due on the deliveries warrants it; or
                  (b) The Contractor requests it and the amount due on the deliveries is at least $1,000 or
                      50 percent of the total contract price.

          FAR 52.232-7, Payments under Time-and-Materials and Labor-Hour Contracts, provides
           general instructions on payment of invoices. The clause states in part:
              The Government will pay the Contractor as follows upon the submission of vouchers approved by
              the Contracting Officer or the authorized representative:
                  (a) Hourly rate.
                      (1) Hourly rate means the rate(s) prescribed in the contract for payment for labor that
                          meets the labor category qualifications of a labor category specified in the contract that
                          are—
                            (i) Performed by the Contractor;
                            (ii) Performed by the subcontractors; or
                            (iii) Transferred between divisions, subsidiaries, or affiliates of the Contractor under
                                  a common control.
                      (2) The amounts shall be computed by multiplying the appropriate hourly rates prescribed
                          in the Schedule by the number of direct labor hours performed.
                      (3) The hourly rates shall be paid for all labor performed on the contract that meets the
                          labor qualifications specified in the contract. Labor hours incurred to perform tasks for
                          which labor qualifications were specified in the contract will not be paid to the extent
                          the work is performed by employees that do not meet the qualifications specified in the
                          contract, unless specifically authorized by the Contracting Officer.
                      (4) The hourly rates shall include wages, indirect costs, general and administrative
                          expenses, and profit. Fractional parts of an hour shall be payable on a prorated basis.
                      (5) Vouchers may be submitted once each month (or at more frequent intervals, if
                          approved by the Contracting Officer), to the Contracting Officer or authorized
                          representative. The Contractor shall substantiate vouchers (including any
                          subcontractor hours reimbursed at the hourly rate in the schedule) by evidence of actual
                          payment and by—
                            (i) Individual daily job timekeeping records;
                            (ii) Records that verify the employees meet the qualifications for the labor categories
                                 specified in the contract; or
                            (iii) Other substantiation approved by the Contracting Officer. 



   SIGTARP 11-004                                                                                          September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP                          41




   Appendix H – New OFS Guidance to Its Outside Counsel
   on Legal Fee Bill Submission and Format
   From:                     [name redacted–(b)(6)]
   Sent:                     Thursday, March 03, 2011 11:26 AM 
   Subject:                  Additional Guidance re Invoice Submission and Formatting Instructions 

   Dear OFS Contractor:    
        
   In an effort to standardize the procedures for all contractors in the submission of proper 
       legal services invoices, listed below is guidance regarding invoice submission, invoice 
       format and other direct costs.  This guidance should be considered as supplementary only 
       to your base contract and individual task orders, which shall supersede anything 
       contained herein to the contrary.  Please ensure that your March 2011 billing and all 
       billing going forward conforms to the following standards: 
    
         A. Invoice Submission Instructions 
    
   Please refer to your base contract regarding invoicing and payment instructions. In 
       addition, please use the following guidance in the preparation and submission of monthly 
       invoices: 
    
         1. Invoices should include your firm name, your DUNS number and the date. 
         2. Invoices should be issued separately for each task order under your base contract.  Please 
             indicate the contract and task order number as well as the invoice number on the cover page 
             of each invoice.  Any Purchase Requisition number assigned to the task order by Treasury 
             should also be listed. [COTRs to supply PR numbers to contractors as needed). 
         3. Invoices should be submitted for each calendar month. 
         4. Review bill prior to submission to ensure that it is within the labor hour categories and 
             hourly rate maximums required by the task order and that only allowable expenses are 
             charged as described in the task order and the other direct cost section of the base 
             contract if such costs have been awarded in the task order. 
         5. Do not bill for a service or cost that is customarily included in the normal overhead or 
             administrative expense of running a law firm (monthly bill preparation often falls in this 
             category). 
    
         B. Invoice Formatting and Instructions 
    
   In general, each entry shall include activity descriptions that are sufficiently detailed 
       to allow the COTR to determine whether all the time, or any portion thereof, is actual, 
       reasonable, and necessary and shall include the following:  
    
         1. All activity descriptions shall be divided into general project categories of time. 
         2. All entries shall include complete and detailed activity descriptions without the use of 
             acronyms. 
         3. Each activity description shall include a time allotment.  
         4. Activities shall be billed in increments of one‐tenth of an hour (six minutes). 
         5. Each activity description shall include the type of activity (e.g., phone call, research).  
         6. Each activity description shall include the subject matter where task orders have multiple 
             subjects.  
         7. Activity descriptions shall not be lumped or block‐billed, i.e., each activity shall have a 
             separate description and a time allotment.  
         8. The activity descriptions shall individually identify all meetings and hearings, other key 
             attendees in the firm or at Treasury, the subject(s) of the meeting or hearing, and the 
             participant's role. 
         9. Activity descriptions shall be presented chronologically, or chronologically within each 
             project category. 
         10. All travel shall be approved in writing by the Contracting Officer or Contracting Officer 
             Technical Representative prior to the occurrence of the travel. 
      
         C. Other Direct Costs: 
    
   For task orders that provide for other direct costs, please refer to your base contract 
       regarding allowable and non‐allowable costs and travel reimbursement procedures. 

   SIGTARP 11-004                                                                                     September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP            42




   Appendix I – Acronyms and Abbreviations
   Acronym          Definition

   CAP              Capital Assistance Program
   CO               Contracting Officer
   COTR             Contracting Officer’s Technical Representative
   CPP              Capital Purchase Program
   EESA             Emergency Economic Stabilization Act of 2008
   FAR              Federal Acquisition Regulation
   FDIC             Federal Deposit Insurance Corporation
   GSA              General Services Administration
   OFS              Office of Financial Stability
   PPIF             Public-Private Investment Fund
   PPIP             Public-Private Investment Program
   RFP              Request for Proposal
   SBA              Small Business Administration
   SIGTARP          Office of the Special Inspector General for the Troubled Asset Relief Program
   TARP             Troubled Asset Relief Program




   SIGTARP 11-004                                                                      September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP           43




   Appendix J – Audit Team Members
   This audit was conducted and the report was prepared under the direction of Kurt Hyde, Deputy
   Special Inspector General for Audit and Evaluation, in the Office of the Special Inspector
   General for the Troubled Asset Relief Program. The staff members who conducted the audit and
   contributed to the report include Leah DeWolf, Brenda James, Danial Olberding, Sarah Reed,
   and Trevor Rudolph.




   SIGTARP 11-004                                                                     September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP          44




   Appendix K – Management Comments




   SIGTARP 11-004                                                                     September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP          45




   SIGTARP 11-004                                                                     September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP          46




   SIGTARP 11-004                                                                     September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP          47




   SIGTARP 11-004                                                                     September 28, 2011
SECOND REPORT ON TREASURY’S PROCESS FOR CONTRACTING FOR PROFESSIONAL SERVICES UNDER TARP          48




   SIGTARP 11-004                                                                     September 28, 2011
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated with the Troubled
Asset Relief Program, please contact the SIGTARP Hotline.

By Online Form: www.SIGTARP.gov
   U           U   U                     U                           By Phone: Call toll free: (877) SIG-2009

By Fax: (202) 622-4559

By Mail:                  Hotline: Office of the Special Inspector General
                          for the Troubled Asset Relief Program
                          1801 L Street., NW, 3rd Floor
                          Washington, D.C. 20220


Press Inquiries
If you have any inquiries, please contact our Press Office:
                                                                     Julie Vorman
                                                                     Acting Director of Communications
                                                                     U




                                                                     Julie.Vorman@treasury.gov
                                                                     202-927-1310

Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:

                                                                     Lori Hayman
                                                                     Director of Legislative Affairs
                                                                     Lori.Hayman@treasury.gov
                                                                     U                           U




                                                                     202-927-8941


Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.sigtarp.gov. 
                                                                              U              U
